<html>
<title> - DROUGHT</title>
<body><pre>[Senate Hearing 109-1113]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1113
 
                                DROUGHT

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
64-376                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294e5946694a5c5a5d414c4559074a464407">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

JIM DeMINT, South Carolina,          E. BENJAMIN NELSON, Nebraska, 
    Chairman                             Ranking
TED STEVENS, Alaska                  MARIA CANTWELL, Washington
GORDON H. SMITH, Oregon              BILL NELSON, Florida
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2006...................................     1
Statement of Senator DeMint......................................     1
    Prepared statement of the Western Governors' Association.....     3
Statement of Senator E. Benjamin Nelson..........................     2

                               Witnesses

Geringer, Hon. Jim, Director, Policy and Public Sector Strategy, 
  Environmental Systems Research Institute (ESRI); Wyoming 
  Governor (1995-2003); Representative, The Alliance for Earth 
  Observations...................................................     7
    Prepared statement...........................................     9
    Letter, dated May 17, 2006, to Hon. Jim DeMint and Hon. E. 
      Benjamin Nelson from Jim Geringer, The Alliance for Earth 
      Observations...............................................    38
Koblinsky, Dr. Chester J., Director, Climate Program Office, 
  Office of Oceanic and Atmospheric Research, National Oceanic 
  and Atmospheric Administration (NOAA), Department of Commerce..    21
    Prepared statement...........................................    23
Wilhite, Dr. Donald A., Director, National Drought Mitigation 
  Center (NDMC); Professor, School of Natural Resources, 
  University of Nebraska--Lincoln................................    13
    Prepared statement...........................................    14


                                DROUGHT

                              ----------                              


                        THURSDAY, APRIL 27, 2006

                               U.S. Senate,
        Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Jim DeMint, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good morning. I want to thank all our 
witnesses and all the folks who are here. And I want to 
particularly thank my Co-Chairman, Senator Nelson, for putting 
together this hearing on such an important subject.
    So, this morning we're going to be discussing severe 
drought. And I look forward to your testimony. It's an issue we 
occasionally have in South Carolina, but not nearly as often as 
we do in the Midwest. So, I, again, appreciate your being here, 
and the whole point is to develop some constructive 
recommendations on how this committee and this Congress can be 
more effective in supporting states and communities in dealing 
with drought.
    So, this hearing dovetails with a lot of other hearings 
that we've had this year. We've had one in Myrtle Beach, on 
hurricanes. I just got back last week from San Francisco, a 
hearing on earthquakes. Senator Boxer participated with me. And 
many times as we think about disasters we don't think about 
droughts, but those of you in the Midwest who have gone through 
it know how severe the impact is. Estimates are that the cost 
of droughts have been $6 to $8 billion to the whole U.S. 
economy in a year. We know there are numerous fires that have 
resulted from droughts. In the year 2000, with that wildfire 
season, it was particularly destructive, with $2 billion in 
losses. And probably most importantly, droughts can threaten 
lives. In 1988, from the drought and the hot weather, we had 
over 5,000 Americans whose deaths were attributed either to the 
dry weather or the hot weather. So, this is an important 
problem to the country.
    Cloud seeding aside, there is not much we can do about the 
droughts themselves. It's a fact of life. It's part of our 
natural climate. And either we have precipitation or snowmelt, 
or we don't, but this doesn't mean that we're helpless in how 
we face a looming drought. We can prepare. We can collect data 
to recognize when a drought is coming and how severe its impact 
might be. We can support the science that would allow us to 
better predict the severity of a drought. And, finally, we can 
combine the observations and the forecasts into a proactive 
strategy to mitigate the impact of drought.
    I'm looking forward to Dr. Wilhite's comments on the 
processes he's developed in preparing for a drought mitigation 
plan. I was pleased to see that the Administration is aware of 
this issue and has put $4 million in new money in their Fiscal 
Year 2007 budget to develop a National Integrated Drought 
Information System. So, it's good to see that the interest is 
being focused. And we want to use this committee as much as we 
can to focus additional attention on it.
    Again, I am looking forward to your testimony. Before I 
introduce our witnesses, I'd like to yield to Senator Nelson 
for his opening statement.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you very much, Mr. Chairman. And 
I, too, am pleased that we're having this hearing today.
    The issue of drought is one that I've been involved with 
for more years than I'd ever like to think about it. And I 
appreciate having the forum of the Disaster Prevention and 
Prediction Subcommittee to talk about a disaster that has had 
such an impact, specifically on my State of Nebraska. 
Fortunately, drought conditions are improving in Nebraska in 
many areas, but we are--we have endured a number of very 
difficult years struggling with the impact drought has had on 
our economy and environment and the social implications that go 
along with a disaster of this kind.
    One of my biggest frustrations of the past few years, as an 
elected official trying to help the areas of my state 
devastated by drought, has been making people understand that 
this drought really is a disaster, as much as a hurricane or an 
earthquake or a tornado, just of a different kind. I even named 
the drought in Nebraska, Drought David, in an effort to 
crystallize the drought so that people could see that it's the 
same kind of experience, in a different way, as any other 
natural disaster.
    Unlike other natural disasters, though, droughts are much 
more difficult to identify. It's hard to miss an oncoming flood 
or tornado or a hurricane or their immediate aftermath. 
Drought, and its effects, is much harder to quantify, and it 
develops slowly. It doesn't necessarily have a clear beginning 
point or a clear ending point. And it may expand--and may span 
over an extended period of time.
    Because it's difficult to forecast and plan for droughts, 
it's especially important that we now have programs in place, 
such as the National Drought Mitigation Center at the 
University of Nebraska in Lincoln. The Drought Mitigation 
Center, among other things, maintains a web-based information 
clearinghouse, provides drought monitoring, prepares and 
provides the weekly U.S. Drought Monitor, which covers all 50 
states, and develops drought policy and planning techniques. 
I'm anxious to have Dr. Wilhite, from the Drought Mitigation 
Center, talk more about the Center and its activities. But I 
did want to highlight its importance in dealing with drought in 
this country.
    I believe it's crucial to encourage more investment in 
research programs such as the Drought Mitigation Center. The 
research done up front in monitoring drought trends--monitoring 
drought trends will help our capabilities to mitigate and 
respond to its effects in a much more effective manner. It's 
cost effective to support programs such as this. And I advocate 
for continued support for this important program.
    I've been working with Dr. Wilhite, NOAA, and the Western 
Governors' Association on legislation to establish the National 
Integrated Drought Information System--I suppose we call it 
NIDIS--with another alphabet group, with NOAA, for the purposes 
of improving drought monitoring and forecasting capabilities. 
Representatives Hall and Udall, on the House side, have already 
introduced NIDIS legislation, and I plan to introduce this 
legislation with Senator Domenici soon, on this side. And I'm 
hopeful that information that we get today will help us write a 
bill that will be effective and can garner widespread support.
    The National Drought Policy Commission recommended, in 
their May 2000 report to Congress, that this country should 
move toward a more proactive approach to drought preparedness 
and response.
    The call for improved drought monitoring and forecasting 
has also been advocated by the Western Governors' Association. 
And as a former Chairman of that association, I'm pleased that 
their interest is so significant and so positive.
    The NIDIS legislation that I want to introduce with Senator 
Domenici will authorize the much needed drought early warning 
system envisioned by the National Drought Policy Commission and 
the Western Governors' Association. If enacted, this bill will 
allow our Nation to become much more proactive in mitigating 
and avoiding the costly impacts and contentious conflicts that 
so often happen today when water shortages and droughts occur.
    I'll close by saying thank you, again, to the Chairman for 
holding this hearing. This issue is of great importance to me 
and my state. I look forward to the testimony. And it's, of 
course, a pleasure for me to welcome my former colleague and 
good friend from the state to the west of us, Governor 
Geringer, from Wyoming.
    Mr. Chairman?
    Senator DeMint. Thank you, Senator.
    I have a statement from the Western Governors' Association 
that I would like to submit to the record. So, I'd just ask 
unanimous consent that this be submitted.
    Senator Ben Nelson. Certainly, without objection.
    Senator DeMint. Without objection. Thank you.
    [The information referred to follows:]

        Prepared Statement of the Western Governors' Association

    Mr. Chairman and members of the Committee, the Western Governors' 
Association commends you for holding this hearing on drought. With this 
statement, we would like to share with you some of WGA's perspectives 
and experiences with regard to drought preparedness and the National 
Integrated Drought Information System Act of 2006.
    The Western Governors' Association is an independent, nonprofit 
organization representing the Governors of 19 states, American Samoa, 
Guam, and the Northern Mariana Islands. Through their Association, the 
Western Governors identify and address key policy and governance issues 
in natural resources, the environment, human services, economic 
development, international relations, and public management.
    Drought is a normal part of the climate for virtually all regions 
of the United States, but it is of particular concern in the West, 
where any interruption of the region's already limited water supplies 
over extended periods of time can produce devastating impacts. Records 
indicate that drought occurs somewhere in the West almost every year. 
However, it is multi-year drought events that are of the greatest 
concern to the economic and ecological health of Western states.
    Water scarcity continually defines and redefines the West. The 
steady growth that has been characteristic for much of the West today 
creates increased demands for agricultural, municipal and industrial 
water supplies. As municipal and industrial water use increase relative 
to older agricultural uses, the demand becomes more inelastic. A farmer 
can forgo a crop year when water supplies are tight: a municipal water 
system cannot cut back or shut down without serious consequences to the 
community served. Furthermore, such competing demands as the public's 
rising concern for meeting ``quality of life'' and environmental 
objectives create water supply management challenges in times of normal 
precipitation. Drought exacerbates these challenges.
National Drought Preparedness Act of 2005
    During the 1995-1996 drought in the Southwest and southern Great 
Plains states, WGA created a Drought Working Group, which found that 
drought is a complex and widespread natural hazard, affecting more 
people in the United States than any other natural hazard, including 
hurricanes, floods, and tornadoes, and accumulating annual estimated 
losses between $6 and $8 billion. The magnitude and complexity of 
drought hazards have increased with growing population, population 
shifts to drier climates, urbanization, and changes in land and water 
use.
    Although drought visits some part of the country every year and 
causes billions of dollars in impacts, there does not exist a permanent 
national policy to monitor, prepare for and respond to drought 
disasters. At the Federal level, droughts have historically been 
treated as unique, separate events even though there have been 
frequent, significant droughts of national consequences over the years. 
Actions are taken mainly through special legislation and ad hoc 
measures rather than through a systematic and permanent process, as 
occurs with other natural disasters. Frequently, Federal funding to 
assist states has been unavailable, or not available in a timely 
manner.
    In the 1996 WGA report Drought Response Action Plan, the Governors 
emphasized the need for incorporating mitigation and preparedness 
measures in government drought programs, and called for the development 
of ``a national drought policy or framework that integrates actions and 
responsibilities among all levels of government (Federal, tribal, 
state, regional and local).'' Following on this recommendation, 
Congress enacted the ``National Drought Policy Act of 1998, Pub. L. 
105-109, sponsored by Senator Domenici. The law established an 
``advisory commission to provide advice and recommendations on the 
creation of an integrated, coordinated Federal policy designed to 
prepare and respond to serious drought emergencies.'' The National 
Drought Policy Commission's report was issued in May 2000.
    Based on the recommendations in the National Drought Policy 
Commission's report, WGA worked with Senator Domenici and Senator 
Baucus to develop legislation that would establish a national drought 
policy. On April 14, 2005, Senators Domenici and Baucus introduced the 
National Drought Preparedness Act of 2005, S. 802.
    The Domenici-Baucus bill would establish a comprehensive national 
drought policy through statutorily authorizing USDA as the lead Federal 
agency for drought, and delineating the responsibility for coordinating 
and integrating Federal drought assistance programs to a National 
Drought Council. S. 802 would encourage drought preparedness planning 
at all levels, and, as droughts emerge, would focus Federal funding on 
the implementation of these plans in order to proactively mitigate the 
drought's impacts. The bill would also authorize the Drought Assistance 
Fund, which would allow the Federal agencies to proactively implement 
drought programs, rather than having to wait for an emergency 
supplemental appropriation.
    The National Integrated Drought Information System (NIDIS) 
authorized by the bill would coordinate and integrate a variety of 
observations, analysis techniques and forecasting methods in a system 
that will support drought assessment and decisionmaking at the lowest 
geopolitical level possible. NIDIS is intended to provide water users 
across the board--farmers, ranchers, utilities, tribes, land managers, 
business owners, recreationalists, wildlife managers, and 
decisionmakers at all levels of government--with the ability to assess 
their drought risk in real time and before the onset of drought, in 
order to make informed decisions that may mitigate a drought's impacts.
    The Western Governors' Association supports the National Drought 
Preparedness Act of 2005, and has urged its enactment. The Governors 
believe that enactment of the National Drought Preparedness Act of 2005 
would move the country toward a proactive approach that will avoid 
conflicts and minimize the damage caused by future droughts, thereby 
saving taxpayers money.
The National Integrated Drought Information System Act of 2006
    On June 21, 2004, the Western Governors unanimously adopted a 
report developed in partnership with the National Oceanic and 
Atmospheric Administration (NOAA) entitled, Creating a Drought Early 
Warning System for the 21st Century: The National Integrated Drought 
Information System (NIDIS). In the report, the Governors conclude that 
``Recognition of droughts in a timely manner is dependent on our 
ability to monitor and forecast the diverse physical indicators of 
drought, as well as relevant economic, social and environmental 
impacts.'' The report describes the vision for NIDIS and offers 
recommendations for its implementation. It is available online at 
www.westgov.org.
    On behalf of the Western Governors' Association, we commend Senator 
Nelson and Senator Domenici, on NIDIS. In the House, H.R. 5136, ``The 
National Integrated Drought Information System Act of 2006,'' was 
introduced by Representative Ralph Hall and Representative Mark Udall. 
The Western Governors support this legislation and urge Congress to 
authorize NIDIS this year.
    There is broad basis of support for NIDIS beyond the WGA report:

  <bullet> In its May 2000 report to Congress, the National Drought 
        Policy Commission recommended improved ``collaboration among 
        scientists and managers to enhance the effectiveness of 
        observation networks, monitoring, prediction, information 
        delivery, and applied research and to foster public 
        understanding of and preparedness for drought.''

  <bullet> The Department of the Interior's report, Water 2025: 
        Preventing Crises and Conflict in the West states, ``As part of 
        the effort to establish the National Drought Monitoring 
        Network, Interior believes that one-stop shopping for Western 
        water users on a single government website will aid in problem 
        solving, particularly in critical areas. Such a site can 
        provide information on snow pack, runoff, river operations, 
        forecasting, and drought prediction.''

  <bullet> The U.S. Group on Earth Observations has drafted a strategic 
        plan for the U.S. Integrated Earth Observation System (IEOS), 
        the U.S. contribution to the Global Earth Observation System of 
        Systems (GEOSS). The IEOS Strategic Plan identifies the 
        National Integrated Drought Information System as one of six 
        ``near-term opportunities.''

  <bullet> In June 2005, the Subcommittee on Disaster Reduction--an 
        element of the President's National Science and Technology 
        Council--issued its report Grand Challenges for Disaster 
        Reduction. The report finds ``Compared to all natural hazards, 
        droughts are, on average, the leading cause of economic 
        losses.'' The SDR report states: ``The slow onset of drought 
        over space and time can only be identified through the 
        continuous collection of climate and hydrologic data. To 
        enhance decisions and minimize costs, drought warning systems 
        must provide credible and timely drought risk information 
        including drought monitoring and prediction products.'' The 
        report includes a recommendation to ``build and deploy a 
        national instrument system capable of collecting climate and 
        hydrologic data to ensure drought can be identified spatially 
        and temporally, and develop an integrated modeling framework to 
        quantify predictions of drought and drought impacts useful in 
        decisionmaking.''

  <bullet> The President's 2007 budget request includes $7.8 billion 
        for NIDIS implementation and support.

    The Western Governors believe that improved drought monitoring and 
forecasting is fundamental to a proactive approach toward drought and 
water shortages. NIDIS will allow policymakers and water managers at 
all levels of the private and public sectors to make more informed and 
timely decisions about their water resources in order to mitigate or 
avoid the impacts from droughts.
Conclusion
    As we approach summer, many of our western states--and much of the 
country--are seeing areas in drought. According to NOAA, about 26 
percent of the contiguous U.S. is currently affected by moderate-to-
extreme drought. Much of the Southwest had less than normal winter 
snowpack at the end of March, despite heavy snow during the month of 
March. Additionally, the January-March period was the fifth warmest 
ever recorded in the U.S., largely due to a record warm January.
    We are already seeing the impacts of drought in 2006. According to 
the National Interagency Fire Center, there have been 32,988 fires 
between January 1 and April 24 on 2,195,768 acres. This compares to the 
5-year average for this time period of 23,639 fires on 485,308 acres.
    We know from our past experiences, the costs of response efforts to 
drought have been staggering. The estimated cost of the 1988-1989 
drought was $39 billion nationwide and was, at the time, the greatest 
single year hazard-related loss ever recorded. On average, the Federal 
Government spends $6-$8 billion on drought response. Federal wildfire 
suppression costs averaged $1.16 billion per year between 2000-2005. 
Additionally, much time and money have gone into trying to address the 
water conflicts arising in many of the large river systems in the West, 
including the Missouri River, the Colorado River, the Rio Grande, the 
Klamath River Basin, and the Snake River Basin.
    The Western Governors' Association believes that enactment of the 
National Drought Preparedness Act of 2005 would move the country toward 
a proactive approach to drought that will avoid conflicts and minimize 
the damage caused by future droughts, thereby saving taxpayers money. 
As a Nation, we have successfully applied such a proactive policy 
toward other natural disasters through the Stafford Act. It is high 
time that we have a comprehensive national policy for drought.
    Furthermore, the Western Governors believe that improved drought 
monitoring and forecasting is fundamental to a proactive approach to 
addressing not only drought, but water shortages. The National 
Integrated Drought Information System will allow policymakers and water 
managers at all levels of the private and public sectors to make more 
informed and timely decisions about water resources in order to 
mitigate or avoid the impacts from droughts. WGA strongly supports the 
National Integrated Drought Information System Act of 2006, and urges 
its enactment this Congress.

    Senator DeMint. Now I'd like to introduce our witnesses. 
Appearing this morning is Governor Jim Geringer. He's the 
Director of Policy and Public Sector Strategy for the 
Environmental Systems Research Institute, a provider of 
geospatial information systems. He is also Representative of 
The Alliance for Earth Observations. He also served as Governor 
of Wyoming from 1995 until 2003, during a number of droughts, 
so he should have a good perspective and a lot of insights for 
this Subcommittee.
    Now, also appearing is Dr. Chet Koblinsky, the Director of 
the Climate Program Office at the National Oceanic and 
Atmospheric Administration. He will be discussing the 
Administration's work to more effectively monitor and predict 
severe drought, and I'm looking forward to his comments.
    Finally appearing is Dr. Don Wilhite, from the University 
of Nebraska. And I would like to yield to my colleague, Senator 
Nelson, to introduce this Nebraska witness.
    Senator Ben Nelson. Dr. Wilhite is Founder and Director of 
the National Drought Mitigation Center at the University of 
Nebraska, Lincoln. He is also a Professor in the University's 
School of Natural Resources. His research and outreach 
activities focus on issues of drought monitoring, planning, 
mitigation, and policy, and the use of climate information in 
decisionmaking. He has collaborated with many countries and 
regional and international organizations on drought policy and 
planning issues, and he has conducted numerous workshops on 
drought planning in the U.S. and internationally.
    We're certainly happy to have him here today and share his 
experience, knowledge, and expertise in this area. And it's a 
personal pleasure for me to say welcome, Dr. Don Wilhite.
    Senator DeMint. Thank you, Senator.
    And, with that, I would ask our witnesses to make a short 
opening statement. If you could keep your comments to 5 
minutes, and then we'll have some give-and-take with some 
questions. And we'll start with the Governor.

  STATEMENT OF HON. JIM GERINGER, DIRECTOR, POLICY AND PUBLIC 
            SECTOR STRATEGY, ENVIRONMENTAL SYSTEMS 
          RESEARCH INSTITUTE (ESRI); WYOMING GOVERNOR 
      (1995-2003); REPRESENTATIVE, THE ALLIANCE FOR EARTH 
                          OBSERVATIONS

    Mr. Geringer. Well, thank you, Mr. Chairman and Senator 
Nelson. We appreciate the opportunity to be here.
    I am with the SRI, former Governor of Wyoming, and a 
Representative of the Alliance for Earth Observation, so I'll 
speak from the perspective of each of those, at least in part.
    As I approached the Hill this morning, we were curious 
about how hot it might be up here with all the discussion over 
the price of oil, the commodity of oil, the commodity of 
gasoline, and certainly the other commodities, like gold, that 
are high on everybody's agenda, but the commodity called water 
is going to be the dominant issue for many years to come. In 
fact, it will be the most significant commodity that we ever 
deal with from here on, considering the population and 
demographic distribution that we have in the world.
    Mr. Chairman, you mentioned natural disasters. And natural 
disasters seem to be on the increase--the level, the intensity, 
the frequency, the type, and the expectation that something 
more has to be done. And the United States is expected to lead 
the effort to predict, respond, and recover. That seems to be 
our role. Yet we have finite resources for what seems to be an 
infinite demand. You've already mentioned the nature of drought 
that natural disasters--dealing with weather, I believe this 
Subcommittee has the title of Prevention and Prediction. In the 
case of weather-related circumstances, we may not be able to 
prevent, but we can certainly do something more to predict, as 
well as to manage. As you've already mentioned, we don't have 
to just sit by and stoically accept whatever comes along. So, 
prevention, maybe not; but prediction and mitigation, I think, 
would be the key.
    Drought is different. It's slow to develop, as Senator 
Nelson said, sometimes lasting for years. You can't tell a 
beginning or an end. But drought, overall, is the absence of, 
or shortage of, water. It's a question of, how much are we 
using, how much do we have, and how much do we need?
    Drought, then, will vary, depending on the circumstance. 
Certainly, with the Drought Monitor that Dr. Wilhite's 
organization has at UNL, we can tell from the map today where 
the most intense droughts are; and we quite often relate it to 
agriculture. But it's so far beyond just agriculture--energy 
production is affected, transportation, tourism, recreation, 
our forest health, municipal water supplies, managing for 
municipalities, environment, wildlife, and human health. So, 
the losses are far beyond the numbers you've quoted, Mr. 
Chairman, because of their impact, not only in direct cost or 
insured cost, but also in lost opportunity. The problem, as I 
would define it--which means the opportunities I would define--
run in two main categories. The first is, our current policies 
and programs, as Dr. Wilhite, I'm sure, will reinforce, foster 
dependency, rather than enabling risk management. And the 
second thing I would comment on is that our Earth Observation 
Systems, including for drought, the technologies, the 
applications, the sensors that are--that could be out there, 
and should be out there, and even are out there, they're 
neither efficient nor integrated.
    Now, on the first issue, our typical response to a disaster 
is to come in more after-the-fact than to plan better for the 
event or even mitigate or prevent it. The unintended 
consequence of always making people whole after a disaster is 
that we have created an unintended consequence that creates 
more vulnerability. People don't plan and prepare well enough 
for a disaster, or to anticipate it well enough to mitigate the 
impact on them. So, we've created a culture of expectation that 
government will always be there to make things whole, or at 
least as whole as possible. We need to break that cycle of 
reconstruction after destruction. We need to shift the focus to 
planning and prediction, even if prevention is not an option.
    And, on the second part, detection, monitoring, and 
analysis are a fragmented patchwork. There are custom 
applications that are very narrowly focused in many cases, 
sensor-specific, not networked, not well integrated. We need a 
fully integrated system of systems for observing the Earth and 
process the data that's collected, starting with drought and 
ending up with overall disaster preparedness. And integration 
of data systems is one that I would include as Appendix B to my 
written testimony. But the idea is to manage risk, whether 
you're a water manager, a conservationist, a farmer, or a 
manufacturer. Greater self-reliance through risk management, 
the redirection of funds from assistance programs into 
mitigation is more likely.
    I do support NIDIS, the National Integrated Drought 
Information System, because it allows us to enable the 
collection of large amounts of data, which we need, from 
sensors that are remote and Earth-based, data that can lead to 
information that leads to action and decisions. And that's the 
key. It's not just somebody else telling us what to do, it's 
how we decide, individually, as well as collectively, what to 
do.
    We need to develop a culture among our agencies to share 
data, applications, and predictions. And this isn't just about 
the United States. Weather is local in effect, but global in 
generation. We need to cooperate with other countries through a 
Global Earth Observation System of Systems so that we can not 
only lead the way, but remain competitive economically in the 
world. Innovation is the key to competitiveness.
    I would close, Mr. Chairman, with the comment that the 
United States element of the Global Earth Observation System of 
Systems is called IEOS, Integrated Earth Observation System. 
And I have included, as Appendix C, the most recent information 
about this effort. The Earth Observation System architecture, 
enabling an entrepreneurial environment; and the Alliance for 
Earth Observation, the 65 members of that, are listed in that 
Appendix--public sector, private sector, and academia.
    I certainly support that you move forward, Senator Nelson, 
with Senator Domenici on introducing the NIDIS bill and making 
it part of an overall system of Earth observations so that we 
can do a better job of managing risk, making better individual, 
as well as collective, decisions.
    And I would yield to questions.
    [The prepared statement of Mr. Geringer follows:]

 Prepared Statement of Hon. Jim Geringer, Director, Policy and Public 
   Sector Strategy, Environmental Systems Research Institute (ESRI); 
    Wyoming Governor (1995-2003); Representative, The Alliance for 
                           Earth Observations

    Chairman DeMint, Ranking Member Nelson, members of the Committee, 
special guests, ladies and gentlemen. My name is Jim Geringer. I am the 
Director of Policy and Public Sector Strategy for Environmental Systems 
Research Institute (ESRI), the industry leader for geospatial 
information systems. I served as Governor of Wyoming from 1995 to 2003. 
I am also a Representative of the Alliance for Earth Observations, a 
nonprofit initiative to unite the private sector in the mission to 
promote the understanding and use of Earth observations for societal 
and economic benefit. My testimony today will be from my perspective of 
each of these roles.
    Of all the commodities sought in our marketplaces today, none will 
have higher priority in the future than the universal commodity--water. 
Not oil or gold or pork bellies, but water. Your hearing today is about 
water, or more specifically the absence or shortage thereof.
Situation
    Natural disasters, both locally and globally, are increasing while 
the overall level of financial assistance available for emergency 
response in the world has been shrinking since 1992,\1\ according to a 
recent statement by the Inter-American Development Bank and a separate 
story last week by the Financial Times. Tsunamis, earthquakes, floods, 
fires, hurricanes, volcanoes, landslides and drought are in the news 
with regularity. The U.S. is expected to lead the effort to predict, 
respond and recover. We face infinite demands with finite resources.
---------------------------------------------------------------------------
    \1\ Inter-American Development Bank, March 2006. http://
www.iadb.org/SDS/ENV/site_2493_e.htm.
---------------------------------------------------------------------------
    Much is expected of any elected or appointed official. Lives and 
livelihoods depend upon effectively dealing with disaster. The best way 
for any of us to deal with disaster is to prevent it altogether. The 
irony is that prevention does not attract attention and many times does 
not attract funding. As Governor, if I had called a press conference to 
announce the prevention of a disaster, I would not have drawn much of a 
crowd. But I'd better be prepared to react well in response and 
recovery if one were to happen or else face harsh criticism. In the 
case of weather-related natural disasters, prevention may not be within 
our power. That doesn't mean we stoically accept what comes along if 
more can be done for prediction if not prevention of drought.
    Drought is different from other natural hazards or disasters. 
Drought is slow to develop, a silent, creeping phenomenon evolving over 
a period of months and sometimes lasting for years. Much of the Midwest 
and East Coast suffer from water shortages today, as well as Texas, 
Oklahoma, Louisiana, South Carolina, and Alaska. Parts of the American 
West are in their eighth consecutive year of a prolonged drought.*
---------------------------------------------------------------------------
    * See (Figure 1.) on page 24.
---------------------------------------------------------------------------
    Impacts are complex, affecting agriculture, energy production, 
transportation, tourism, recreation, forests, municipal water supplies, 
environment, wildlife, and human health. Drought is estimated to result 
in average annual losses to all sectors of the economy of between $6-$8 
billion.\2\ First responders to a disaster deserve our full support. In 
the case of drought, the first responders are those who are affected by 
the drought.
---------------------------------------------------------------------------
    \2\ Economic Impacts of Drought and Benefits of NOAA's Drought 
Forecasting Services, NOAA Magazine, September 17, 2002. Website: http/
/www.noaa.gov/magazine/stories/mag51.htm.
---------------------------------------------------------------------------
Problem
    The problem is two-fold. First, our Federal policy and programs 
foster dependency rather than enabling risk management. Second, our 
Earth observation systems, including for drought, are neither efficient 
nor integrated.
    On the first matter--Federal disaster relief programs for nearly 
every type of natural disaster are not well coordinated. They target 
funding for reaction rather than at planning, prevention, prediction 
and mitigation. The unintended consequence is that we are more 
vulnerable to future damage and cost because we mask the impact of the 
loss. For example, when a natural phenomenon such as drought occurs on 
a widespread basis, a disaster is declared and funds are made available 
to mitigate or eliminate the losses. Government's focus is on aid to 
victims. We have created a culture of expectation that government will 
always be there with money.
    We need to break the cycle of expectation of reconstruction after 
destruction. If we don't, we will be faced with ever increasing Federal 
assistance. We must shift the focus to planning and prediction, even if 
prevention is not an option.
    Second, detection, monitoring, and analysis today are a fragmented 
patchwork of custom applications, not networked or integrated. We 
cannot justify duplication of sensors, data acquisition or information 
infrastructure. We do not have a fully integrated system of systems for 
observing the Earth and processing the data collected.
    We are not doing enough as a Nation to assure that proper data is 
on hand to deal with a disaster on the scale of Hurricane Katrina. When 
a severe weather event occurs, it very quickly evolves into a disaster 
response event, an energy event, a transportation event, or a public 
health event. The event is rarely just about weather, just as drought 
isn't just about agriculture. We as a Nation do not have an integrated 
base of reference data and application solutions to effectively and 
promptly respond. If we look at it that way--that we as a Nation do not 
have the tools to respond to drought and other natural hazards--we can 
also say, American economic competitiveness is at risk.
    We must realize that any solution we develop to respond to drought 
and develop integrated information and tools will impact our country 
far beyond our original intent. Whether you are a state water manager, 
a conservationist, or a manufacturer, you need accurate and timely data 
and information to manage risk. And, that information provides great 
advantage to us as a nation. As Warren Isom, Senior Vice President of 
Willis Re Inc., and Board Member of the Weather Risk Management 
Association said recently, ``The weather risk market--in fact the risk-
management business in general--has a profoundly strong interest in 
serious, systematic attempts to improve, expand and intensify the 
capture of data relating to our planet.''
    Greater self-reliance through risk management will generate savings 
from Federal assistance programs allowing the redirection of funds 
rather than necessitating new taxes.
Solution: Technology
    On June 21, 2004, the Western Governors unanimously adopted a 
report entitled, Creating a Drought Early Warning System for the 21st 
Century: The National Integrated Drought Information System. I've 
included a copy in Appendix A of my written testimony. I strongly 
support the creation of NIDIS. The strongest case for NIDIS is to 
enable risk management by individuals, businesses and governments--
shift from reaction and response to prediction and mitigation. With 
better sensors, data, applications, tools and ever improving technology 
we can reward risk management over resignation to the elements.
    Enhancing our ability to detect, monitor and respond will enable 
municipalities to adopt water policies that minimize or eliminate water 
shortages, farmers to plant alternative crops, ranchers to locate 
alternatives for grazing, river barges to anticipate low flows in 
navigable waterways, and health agencies to control disease.
    We should develop a culture among agencies and levels of government 
to share data, applications and predictions, then serve the results to 
the public so that we individually and collectively are more self-
reliant and less vulnerable.
    The next drought or the next disaster can occur anywhere in the 
U.S. Strong, cooperative relationships among agencies are essential to 
a comprehensive integrated system. A description of applications and 
data approaches describing how agencies worked together in the response 
to Hurricane Katrina is included as Appendix B, GIS for the Nation.
    This isn't just about the United States. Weather is local in effect 
but global in generation. We should cooperate with other countries to 
set up a Global Earth Observation System of Systems (GEOSS), and with 
each other to implement the U.S. component of the multinational system, 
the U.S. Integrated Earth Observation System (IEOS). These systems will 
leverage our investments, programs and data, allowing us to analyze, 
model, plan and act in advance to minimize weather disasters, including 
drought.
    In today's global economy, innovation is the key to 
competitiveness. My main message to you today is: The United States 
must stay at the forefront of Earth observation and geospatial 
technologies to better forecast and mitigate natural disasters and 
thereby lead the competition.
    As U.S. Commerce Secretary Carlos M. Gutierrez remarked at the 
Earth Observation Summit III on February 16, 2005, in Brussels, 
Belgium:

        ``I don't think I am overstating it when I say that I believe 
        this integrated observing system will be one of those rare 
        technologies that will fundamentally change the way we live, 
        the way we make policy decisions, and the way we manage scarce 
        and precious resources.''

Policy
    General Earth observation policies should be set by the Congress 
and implemented cooperatively through the President's Cabinet. The 
proposed legislation would set the NIDIS up under the National Oceanic 
and Atmospheric Administration (NOAA). While I applaud the heroic 
support and effort of the NOAA Administrator, VADM Lautenbacher, and 
his team, I submit that NIDIS--because of its significant social and 
economic impact--should be part of an overall IEOS/GEOSS Program Office 
directly under the Secretary of Commerce.
Moving Forward
    NIDIS, IEOS, and GEOSS are as much about service as they are 
technology. The service these integrated information systems promise to 
provide is the mitigation of the effects of natural disasters through 
better risk management. The United States must continue to maintain a 
robust observing capability through satellites, aircraft, unmanned 
aerial vehicles, buoys, and river and stream gauges. Equally important, 
we must also continue to support the important acquisition and 
transformation of data, using geospatial technologies, into useful 
information for decisionmakers.
    More than 60 countries support GEOSS. And, here in the United 
States, the private sector--industry, academia, and non-governmental 
organizations--through The Alliance for Earth Observations is working 
in close partnership with the government to take a proactive role in 
moving the IEOS/GEOSS concept forward. One of the most challenging 
aspects is designing the architecture of these systems. I am pleased to 
submit with my testimony a copy of the final workshop report, Earth 
Observation System Architecture: Enabling an Entrepreneurial 
Environment. Sixty-five representatives of some of the Nation's most 
innovative businesses and academic institutions contributed their 
knowledge and experience to help guide U.S. IEOS/GEOSS architecture 
development. A copy of the report is included in Appendix C.
    Moving forward to respond to drought requires a technology solution 
including sensors and applications. NIDIS, IEOS, and GEOSS provide such 
a solution not only for U.S. response to drought, but also to various 
natural disasters, and build our technological capabilities and 
competitiveness as a nation. We must retain leadership in this critical 
area.
    I urge the Senate to move forward with legislation to establish 
NIDIS, and begin development of the U.S. IEOS as a contribution to 
GEOSS. It will be of great benefit to our nation, its citizens, and 
countries worldwide.
                                 ______
                                 
   Appendix A--Creating a Drought Early Warning System for the 21st 
      Century: The National Integrated Drought Information System*
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files 
and can also be found at http://www.westgov.org/wga/publicat/nidis.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
                     Appendix B--GIS for the Nation

    The NIDIS can be the beginning step in developing a comprehensive 
national data set that allows us to plan, prepare and reduce risk, and 
then to be more effective if and when a natural disaster occurs. The 
initial response to Katrina consumed at least 4 weeks while folks 
feverishly scrambled to assemble enough basic information to know how 
to manage response and recovery. At no time was there a single 
emergency response center for the overall operation.
    The good news is the United States Geological Survey (USGS), the 
National Geospatial-Intelligence Agency (NGA), and the United States 
Department of Homeland Security (DHS) with the assistance of hundreds 
of state, local governments and private citizens implemented a 
Geographic Information Systems database for areas affected by 
Hurricanes Rita and Katrina. Such a database must be deployed when a 
major disaster is imminent in order to leverage critical but disparate 
datasets.
    Their aim was to meet the immediate hurricane response needs, to 
provide a resource for long-term recovery and reconstruction efforts, 
and to assist in preparedness for future hurricane seasons. Their 
effort became known as ``GIS for the Gulf,'' which includes the states 
of Alabama, Louisiana, Mississippi, and Texas. They worked to connect 
many different GIS systems and datasets into a greater whole. These 
organizations began to share, import, integrate, and synchronize 
information needed by the Emergency Operations Centers. The result was 
a comprehensive database based on a standardized, multi-scale data 
model, providing a consistent view of data across jurisdictional 
boundaries. Unfortunately, many of the most important integrated 
datasets were not assembled or available for use until 4 weeks after 
Katrina made landfall. They should have been there before.
    This system should be extended to the rest of the United States as 
``GIS for the Nation.'' It has the potential to save lives and property 
during future events, by saving time, resources, and manpower, provided 
that the infrastructure and data systems are in place and accessible to 
those who need it prior to, during, and after an event. The concept 
applies directly to drought assessment and response through NIDIS, 
allowing better risk assessment for agriculture, economic development, 
health, homeland security, public safety, and transportation, and 
allowing government units to better prepare for and mitigate the 
effects of drought.
    GIS for the Nation would integrate essential data and imagery 
related to emergency operations, structures/critical infrastructure, 
government units, utilities, addresses, transportation, cadastral, 
hydrography, environmental, land use/land cover, base-map, elevation, 
and geodetic control. Data providers should include local, county, 
state, and Federal agencies who currently have such information at 
their disposal, but do not have the infrastructure in place to leverage 
it for prediction, prevention and mitigation.
    The database would consist of roughly 60 data layers, including 
detailed parcel information and aerial imagery, combined with a suite 
of applications that allows data to be viewed, analyzed, and 
manipulated as a decision-support system.
    Pre-event preparedness, particularly a fully integrated, deployable 
GIS infrastructure, is the most effective and valuable action that can 
and should be taken. It would improve many different emergency response 
capabilities and processes for future events. It would also provide 
enormous value for long-term recovery.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This isn't just about Federal agencies. Local organizations and 
private industry generate and own much of the essential data and 
capability. An integrated information system must coordinate with 
statewide GIS leaders to ensure that partnerships and data sharing 
agreements are in place. The time to develop collaborative 
relationships is not during an emergency, but well before.
    GIS for the Nation would facilitate the exchange of data and 
knowledge prior to an event, including information regarding what data 
exists, where it is located, who owns it, how accessible it is, and 
what specific security levels are needed. Much of the base-map 
(framework) data has already been collected and made available through 
the National Map and through the National Integrated Land System (NILS) 
developed by the Bureau of Land Management (BLM). NILS represents the 
essential framework but does not include all of the 60 data layers that 
are needed.
                                 ______
                                 
    Appendix C--Earth Observation System Architecture: Enabling an 
   Entrepreneurial Environment (October 27-28, 2005)--Workshop Final 
                                Report *
---------------------------------------------------------------------------
    * Appendix C has been retained in Committee files.

    Senator DeMint. Thank you, Governor.
    Dr. Wilhite?

         STATEMENT OF DR. DONALD A. WILHITE, DIRECTOR,

           NATIONAL DROUGHT MITIGATION CENTER (NDMC);

            PROFESSOR, SCHOOL OF NATURAL RESOURCES,

                UNIVERSITY OF NEBRASKA--LINCOLN

    Dr. Wilhite. Good morning, Mr. Chairman. Senator Nelson, 
good to see you again. We worked together on Nebraska's drought 
plan when you were Governor, and on some sustainability issues. 
So, it's good to be with you again.
    As mentioned, I'm Don Wilhite, Founder and Director of the 
National Drought Mitigation Center at the University of 
Nebraska, Lincoln.
    I appreciate this invitation to discuss drought and drought 
management in the United States, the need to move this Nation 
to a more risk-based management approach to lessen our 
vulnerability to this creeping natural hazard, and the role of 
the National Integrated Drought Information System, or NIDIS, 
the role that it can play in this process.
    The National Drought Mitigation Center was formed in 1995. 
At the time, there was no national initiative or program that 
focused on drought mitigation, drought monitoring and 
preparedness. The NDMC is unique. Our full attention is devoted 
to building awareness of, and reducing vulnerability to, this 
drought hazard. In the past 11 years, we have made considerable 
progress, but much work remains.
    Some of the important accomplishments of the NDMC include: 
the development of an Internet drought portal that provides 
users with comprehensive information on all aspects of the 
drought hazard; networking with Federal and non-Federal 
agencies on drought monitoring, mitigation, and preparedness; a 
partnership with NOAA and U.S. Department of Agriculture on the 
development of the U.S. Drought Monitor product, and hosting 
the U.S. Drought Monitor web portal since its inception in 
1999; assisting States, tribal, and local governments in the 
development of drought plans--currently there are 38 states 
with drought plans, and an increasing number of those states 
are focusing more on mitigation versus crisis management--most 
of these states have used a drought planning methodology that 
was developed at the National Drought Mitigation Center; 
research and development on drought mitigation and drought 
monitoring tools to aid decisionmakers; development of new 
interactive web-based decision-support tools for agricultural 
producers, natural resource managers, and others; conducting 
drought planning workshops and conferences throughout the 
United States; and also the development of a new tool that was 
introduced last summer called the Drought Impact Reporter, 
which allows us to track impacts across the country in various 
sectors.
    I would like to emphasize a statement that Mr. Koblinsky is 
going to make in his presentation. I had an opportunity to see 
his oral testimony previously. He states that drought is not 
purely a physical phenomenon, it is an interplay between water 
availability and the needs of humans in the environment. This 
is a key point for us to consider. Although drought is a 
natural hazard, the way we manage or mismanage water and 
natural resources determines, to a large extent, our 
vulnerability to drought. Therefore, improving drought 
management is not only about improving monitoring and 
prediction, it is also about understanding and assessing our 
vulnerabilities and managing risk. Improved early warning and 
prediction alone will do little to reduce drought risk. We must 
deliver this information to natural resource managers and 
policymakers in a timely manner and demonstrate how this 
information can be applied in the decisionmaking process.
    I am a strong supporter of NIDIS. It has the potential to 
significantly advance the science of drought management in the 
United States. The National Drought Mitigation Center has been 
involved in the evolution of this concept from the very 
beginning. I presented the report on NIDIS to the Western 
Governors at their annual meeting in June 2004 in Sante Fe. The 
NDMC has continued to be involved with NOAA and other Federal 
agencies and the Western Governors' Association in discussions 
on this initiative. Given the NDMC's scientific expertise on 
drought and our strong linkages to the user community, the NDMC 
can be a valuable partner to NOAA in the implementation of 
NIDIS in the coming years.
    Mr. Chairman, this concludes my testimony. I wish to thank 
you for the opportunity to discuss the programs of the National 
Drought Mitigation Center, my vision of how to improve drought 
management in the United States, and how NIDIS can enhance this 
effort. I'll be glad to answer any questions you might have.
    [The prepared statement of Dr. Wilhite follows:]

Prepared Statement of Dr. Donald A. Wilhite, Director, National Drought 
   Mitigation Center (NDMC); Professor, School of Natural Resources, 
                    University of Nebraska--Lincoln

    I appreciate the opportunity to submit this statement to the 
Senate's Subcommittee on Disaster Prevention and Prediction. My name is 
Don Wilhite; I am the Founder and Director of the National Drought 
Mitigation Center (NDMC), located at the University of Nebraska in 
Lincoln. The National Drought Mitigation Center (NDMC) was formed in 
1995, following a sequence of severe drought years between 1987 and 
1994 that affected virtually all portions of the United States. At the 
time of the NDMC's formation, there was no national initiative or 
program that focused on drought monitoring, mitigation, and 
preparedness. I have been involved in drought-related research and 
outreach since 1980. My efforts have principally been focused on how to 
lessen the Nation's vulnerability to drought through improved 
monitoring and early warning, mitigation, and preparedness. We have 
made considerable progress, but much work remains. The National 
Integrated Drought Information System (NIDIS) has the potential to help 
improve the Nation's capacity to cope more effectively with severe 
drought episodes that create significant impacts on the Nation's 
economic, environmental, and social fabric.
    It is imperative to point out that drought is a normal part of the 
climate for virtually all parts of the United States. For this reason, 
we need to be prepared for droughts, and focus our attention on 
mitigation and planning strategies that would reduce impacts before 
drought strikes. On average, approximately 15 percent of the Nation is 
affected by drought each year, based on the historical record from 1895 
to present. This drought record illustrates both single and multi-year 
events; in particular the droughts of the 1930s, 1950s, 1960s, 1974-
1977, 1987-1994, and 1996 to present are noteworthy for their 
intensity, duration, and spatial extent. During the most recent drought 
period, 35-40 percent of the country was affected and for some regions 
drought conditions persisted for 5 or more years. For example, parts of 
the Southeast, particularly Georgia, North Carolina, South Carolina, 
and Florida experienced 3 to 4 consecutive years of drought between 
1999 and 2002. In the West, much of the Southwest, especially Arizona 
and New Mexico, experienced 5 consecutive years of drought between 2001 
and 2004 while much of Montana, Idaho, and surrounding states 
experienced severe drought for as many as 7 consecutive years since 
1999. My state, Nebraska, has experienced 6 consecutive years of 
drought.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Drought Mitigation Center: Objectives, Programs, and 
        Activities
    The NDMC's program is directed at lessening societal vulnerability 
to drought through a risk-based management approach. The Center's 
activities include promoting and conducting research and outreach 
activities on drought monitoring, mitigation, and preparedness 
technologies; improving coordination of drought-related activities and 
actions within and between levels of government; and assisting in the 
development, dissemination, and implementation of appropriate 
mitigation and preparedness technologies in the public and private 
sectors. Emphasis is placed on research and outreach projects and 
mitigation/management strategies and programs that stress risk 
management measures rather than reactive, crisis management actions. It 
has been demonstrated that crisis management responses, such as drought 
relief, actually decrease self-reliance and, therefore, increase 
vulnerability to future drought episodes. Mitigation and preparedness 
increase self-reliance and reduce vulnerability. Programs that provide 
incentives for mitigation and preparedness are a very good investment 
for government at all levels and for the private sector as well. It has 
been demonstrated that for every dollar invested in mitigation and 
preparedness, four dollars are saved through reduced impacts when a 
natural disaster occurs. It is imperative that we shift the emphasis 
from crisis to risk management, as illustrated by the cycle of disaster 
management (Figure 2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To respond effectively to the Nation's needs for drought early 
warning, mitigation, and preparedness, the NDMC has been conducting 
research and outreach activities since 1995 in the following areas:

  <bullet> Developing and enhancing an information clearinghouse or 
        web-based drought portal on drought early warning, impact 
        assessment, mitigation, preparedness, and response options for 
        decisionmakers.

  <bullet> Conducting and fostering collaborative research on drought 
        monitoring, risk management, impact and vulnerability 
        assessment, mitigation, and preparedness techniques and 
        methodologies.

  <bullet> Assisting state and Federal agencies, tribal and local 
        governments, and regional organizations in developing 
        integrated assessments of drought severity and impacts, 
        including current climate/drought and water supply assessments.

  <bullet> Advising policymakers and others by providing scientific and 
        policy-relevant information on drought and water management 
        issues.

  <bullet> Organizing workshops, conferences, and seminars on drought 
        preparedness planning and mitigation measures to reduce 
        vulnerability to drought.

  <bullet> Collaborating with and providing training for international 
        scientists and facilitating the timely exchange of information 
        on drought mitigation technologies with foreign governments, 
        international and non-governmental organizations, and regional 
        organizations.

Understanding Vulnerability, Preparedness, and Response Strategies
    Vulnerability to drought is dynamic and influenced by a multitude 
of factors, including increasing population, regional population 
shifts, urbanization, technology, government policies, land use and 
other natural resource management practices, desertification or land 
degradation processes, water use trends, and changes in environmental 
values (e.g., protection of wetlands or endangered species). Therefore, 
the magnitude of drought impacts may increase in the future as a result 
of an increased frequency of meteorological drought, changes in the 
factors that affect vulnerability, or a combination of these elements. 
The development of a national drought policy and preparedness plans at 
all levels of government that place emphasis on risk management rather 
than following the traditional approach of crisis management would be a 
prudent step for the United States to take. Crisis management decreases 
self-reliance and increases dependence on government, as illustrated by 
the hydro-illogical cycle.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Figure 3. The hydro-illogical cycle. (Source: National Drought 
        Mitigation Center, University of Nebraska--Lincoln)

    The impacts of drought in recent years have been increasing and, it 
appears, at an accelerating rate, although a systematic national 
assessment and database of drought impacts has only recently been 
developed by the NDMC in the form of the web-based Drought Impact 
Reporter tool. FEMA (1995) estimated annual losses in the United States 
because of drought at $6-$8 billion, making drought the most costly 
natural disaster in the country. Losses from the 1988 drought have been 
estimated at more than $39 billion. The NDMC has estimated that losses 
associated with the 2002 drought exceeded $20 billion. It is important 
to note that these are estimates for a single drought year, while major 
drought events often occur over a series of years, as noted previously.
    The impacts of drought have also been growing in complexity. 
Historically, the most significant impacts associated with drought have 
occurred in the agricultural sector (i.e., crop and livestock 
production). In recent years, there has been a rapid expansion of 
impacts in other sectors, particularly energy production, recreation 
and tourism, transportation, forest and wildland fires, urban water 
supply, environment, and human health. The recent drought years in the 
western United States, for example, have resulted in impacts in non-
agricultural sectors that have likely exceeded those in agriculture. In 
addition to the direct impacts of drought, there are also significant 
indirect impacts that, in most cases, would exceed in value the direct 
losses associated with drought episodes.
Drought Policy and Preparedness
    In the past decade or so, drought policy and preparedness has 
received increasing attention from governments, international and 
regional organizations, and non-governmental organizations. Simply 
stated, a national drought policy should establish a clear set of 
principles or operating guidelines to govern the management of drought 
and its impacts. Creation of a national drought policy is one of the 
goals of the National Drought Preparedness Act (S. 802; H.R. 1386), and 
the National Integrated Drought Information System (NIDIS) is a 
component of this bill. National drought policy should be consistent 
and equitable for all regions, population groups, and economic sectors 
and consistent with the goals of sustainable development and the wise 
stewardship of natural resources. The overriding principle of drought 
policy should be an emphasis on risk management through the application 
of preparedness and mitigation measures. Preparedness refers to pre-
disaster activities designed to increase the level of readiness or 
improve operational and institutional capabilities for responding to a 
drought episode. Mitigation refers to short- and long-term actions, 
programs, or policies implemented in advance of and during drought that 
reduce the degree of risk to human life, property, and productive 
capacity. These actions are most effective if done before the event. 
Emergency response will always be a part of drought management because 
it is unlikely that government and others can anticipate, avoid, or 
reduce all potential impacts through mitigation programs. A future 
drought event may also exceed the ``drought of record'' and the 
capacity of a region to respond. However, emergency response should be 
used sparingly and only if it is consistent with longer-term drought 
policy goals and objectives.
    A national drought policy should be directed toward reducing risk 
by developing better awareness and understanding of the drought hazard 
and the underlying causes of societal vulnerability. The principles of 
risk management can be promoted by encouraging the improvement and 
application of seasonal and shorter-term forecasts, developing 
integrated monitoring and drought early warning systems and associated 
information delivery systems, developing preparedness plans at various 
levels of government, adopting mitigation actions and programs, and 
creating a safety net of emergency response programs that ensure timely 
and targeted relief. A key element of an effective drought policy is 
the delivery of information in a timely manner so informed decisions 
can be made by resource managers and others. Creation of a user-
friendly drought information system is one of the principal goals of 
NIDIS.
    The traditional approach to drought management has been reactive, 
relying largely on crisis management. This approach has been 
ineffective because response is untimely, poorly coordinated, and 
poorly targeted to drought-stricken groups or areas. In addition, 
drought response is post-impact and relief tends to reinforce existing 
resource management practices. It is precisely these existing practices 
that have often increased societal vulnerability to drought (i.e., 
exacerbated drought impacts). The provision of drought relief only 
serves to reinforce the status quo in terms of resource management--
i.e., it rewards poor resource management and the lack of preparedness 
planning. Many governments and others now understand the fallacy of 
crisis management and are striving to learn how to employ proper risk 
management techniques to reduce societal vulnerability to drought and, 
therefore, lessen the impacts associated with future drought events.
    In the United States, there has been some progress in addressing 
the impacts of drought through the development of preparedness plans. 
The most noticeable progress has been at the state level, where the 
number of states with drought plans has increased dramatically during 
the past two decades. In 1982, only three states had drought plans. In 
2006, thirty-eight states have drought plans. The basic goal of state 
drought plans should be to improve the effectiveness of preparedness 
and response efforts by enhancing monitoring and early warning, risk 
and impact assessment, and mitigation and response. Plans should also 
contain provisions (i.e., an organizational structure or framework) to 
improve coordination within agencies of state government and between 
local and Federal Government. Initially, state drought plans largely 
focused on response efforts aimed at improving coordination and 
shortening response time; today the trend is for states to place 
greater emphasis on mitigation as the fundamental element of a drought 
plan. Thus, some plans are now more pro-active, adopting more of a risk 
management approach to drought management. This trend needs to 
continue, and at an accelerated pace. States also need to be encouraged 
to require municipalities to develop drought preparedness plans. Some 
states (e.g., South Carolina, Kentucky, and Texas) have already adopted 
this approach.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The growth in the number of states with drought plans suggests an 
increased concern at that level about the potential impacts and 
conflicts associated with extended water shortages and an attempt to 
address those concerns through planning. Initially, states were slow to 
develop drought plans because the planning process was unfamiliar. With 
the development of drought planning models, such as the 10-step drought 
planning process developed at the NDMC, and the availability of a 
greater number of drought plans for comparison, drought planning has 
become a less puzzling process for states. As states initiate the 
planning process, one of their first actions is to study the drought 
plans of other states to compare methodology and organizational 
structure.
    The rapid adoption of drought plans by states is also a clear 
indication of their benefits. Drought plans provide the framework for 
improved coordination within and between levels of government. Early 
warning and monitoring systems are more comprehensive and integrated 
and the delivery of this information to decisionmakers at all levels is 
enhanced. Many states are now making full use of the Internet to 
disseminate information to a diverse set of users and decisionmakers. 
Through drought plans, the risks associated with drought can be better 
defined and addressed with proactive mitigation and response programs. 
The drought planning process also provides the opportunity to involve 
numerous stakeholders early and often in plan development, thus 
increasing the probability that conflicts between water users will be 
reduced during times of shortage. All of these actions can help to 
improve public awareness of the importance of water management and the 
value of protecting our limited water resources.
    Drought mitigation plans have three essential components, 
regardless of whether they are developed at the state, national, 
regional, or local scale. First, a comprehensive monitoring and early 
warning system provides the basis for many of the decisions that must 
be made by a wide range of decisionmakers as drought conditions evolve 
and become more severe. Equally important, early warning systems must 
be coupled to an effective delivery system that disseminates timely and 
reliable information. As drought plans incorporate more mitigation 
actions, it is imperative that these actions be linked to thresholds 
(e.g., reservoir levels, climate index values) that can serve as 
triggers for mitigation and emergency response actions. Second, a 
critical step in the development of a mitigation plan is conduct of a 
risk assessment of vulnerable population groups, economic sectors, and 
region. The purpose of the risk assessment is to determine who and what 
is at risk and why. This is successfully accomplished through an 
analysis of historical and recent impacts associated with drought 
events. This risk assessment task is accomplished as part of the 10-
step drought planning process developed by the NDMC. Third, after 
impacts have been identified and prioritized, the next step is to 
identify appropriate mitigation actions that can help to reduce the 
risk of each impact for future drought events. In many cases, 
appropriate response actions are also identified through this process, 
but these actions should not conflict with the basic goal of the 
drought mitigation plan: to reduce vulnerability to drought events. As 
noted earlier, some response actions may increase reliance on 
government and encourage the continuation of inappropriate resource 
management practices.
Recommendations for Improving Drought Mitigation and Preparedness
  <bullet> Implement the National Integrated Drought Information System 
        (NIDIS) through a full partnership between NOAA and other 
        Federal agencies, non-Federal agencies, and organizations, 
        including the National Drought Mitigation Center, in order to 
        improve monitoring and early warning systems and seasonal 
        climate forecasts to provide better and more timely and 
        reliable information to decisionmakers; address data gaps in 
        drought monitoring and enhance networks, particularly for soil 
        moisture, snow pack, and ground water; and develop new 
        monitoring and assessment tools/products that will provide 
        resource managers at all levels with proper decision-support 
        tools at higher resolution.

  <bullet> Improve knowledge of the scientific and policy communities 
        and resource managers about the drought hazard.

        1.  Augment paleoclimate and historical climate research to 
        better understand the drought climatology of all regions for 
        more effective planning and design.

        2.  Communicate information on probabilities of single- and 
        multiple-year drought events to natural resource managers and 
        planners, policymakers, and the public.

  <bullet> Improve the reliability of seasonal climate forecasts and 
        train end users on how to apply this information to improve 
        resource management decisions with the goal of reducing drought 
        risk.

        1.  Develop more competitive research grant programs to fund 
        research on drought prediction. In particular, there is a need 
        for enhanced observations and research on both the paleoclimate 
        record and the drought-related dynamics of ocean-atmosphere 
        coupling.

        2.  Form a consortium of scientists to encourage collaboration 
        on drought prediction.

        3.  Develop a network of scientists and end users to assess the 
        practical needs of end users and how forecast information can 
        be communicated more effectively to the user community to 
        maximize its application.

  <bullet> Assess the economic, social, and environmental impacts 
        associated with drought.

        1.  Develop a standard methodology for assessing the impacts of 
        drought on multiple economic sectors and the environment and 
        systematically assess the losses associated with drought events 
        at the local, state, and national levels.

        2.  Evaluate the effect of mitigation actions in reducing the 
        impacts of drought at the local and state level.

        3.  Improve early assessments of drought impacts through the 
        application of appropriate models (i.e., crop, hydrologic).

  <bullet> Assess the science and technology needs for improving 
        drought planning, mitigation, and response at the local, state, 
        tribal, regional, and national levels.

        1.  Evaluate current drought planning models available to 
        governments and other authorities for developing drought 
        mitigation plans at the state and local levels of government 
        and require plans to follow proposed standards or guidelines.

        2.  Develop improved triggers (i.e., links between climate/
        water supply indicators/indices and impacts) for the phase-in 
        and phase-out of drought mitigation and response programs and 
        actions during drought events.

        3.  Develop vulnerability profiles for various economic 
        sectors, population groups, and regions and identify 
        appropriate mitigation actions for reducing vulnerability to 
        drought for critical sectors.

  <bullet> Increase awareness of drought, its impacts, trends in 
        societal vulnerability, and the need for improved drought 
        management.

        1.  Initiate K-12 drought/water awareness programs/curriculum.

        2.  Launch public awareness campaigns for adult audiences, 
        directed at water conservation and the wise stewardship of 
        natural resources.

Summary
    The National Drought Mitigation Center at the University of 
Nebraska--Lincoln strongly supports greater investment in research and 
policies directed at reducing this Nation's vulnerability to drought 
through a more risk-based approach. The implementation of the National 
Integrated Drought Information System is a critical step in this 
direction. Improved climate and water assessments, more reliable 
forecasts at various timescales, better decision-support tools, and 
more timely communication of this information to decisionmakers through 
an interactive delivery system will greatly enhance management of water 
and other natural resources. The NDMC will help NOAA develop an 
implementation plan for NIDIS and partner with them and other Federal 
and non-Federal entities to ensure the success of this program. My 
years of experience with drought management have convinced me that a 
wise initial investment in improved monitoring, early warning and 
prediction, mitigation, and planning will reduce this Nation's 
vulnerability to drought and concomitant impacts on economies, the 
environment, and the social well-being of its citizens.

    Senator DeMint. Thank you, Doctor.
    Dr. Koblinsky?

       STATEMENT OF DR. CHESTER J. KOBLINSKY, DIRECTOR, 
         CLIMATE PROGRAM OFFICE, OFFICE OF OCEANIC AND 
          ATMOSPHERIC RESEARCH, NATIONAL OCEANIC AND 
   ATMOSPHERIC ADMINISTRATION (NOAA), DEPARTMENT OF COMMERCE

    Dr. Koblinsky. Good morning, Senator DeMint, Senator 
Nelson. Thank you for the opportunity to testify on this 
important issue.
    My name is Chester Koblinsky, and I'm the Director of 
NOAA's Climate Program Office.
    NOAA's climate programs provide the Nation with services 
and information to improve the management of climate-sensitive 
sectors, such as energy, agriculture, water, and living marine 
resources. Our services address climate change and variability 
on timescales ranging from weeks to decades for a variety of 
phenomena, including drought.
    What is drought? Well, there is no single definition of 
drought that meets all needs. Drought refers to a period of 
time when precipitation levels are abnormally low, resulting in 
a water shortage that impacts human activities and the 
environment. NOAA scientists evaluate precipitation, 
temperature, soil moisture, groundwater, and surface-water data 
for the present and recent past to determine if drought 
conditions exist. If we want to look to the future, NOAA 
scientists will use computer models, climatology, statistical 
outlooks, and projections to estimate what the future will 
bring.
    Drought is not purely a physical phenomena. There's an 
interplay between water availability and the needs of humans 
and the environment. Drought is a normal recurrent feature of 
climate. It occurs almost everywhere, although its features 
vary from region to region and from year to year. At least a 
part of the country experiences it at any given time.
    Drought is a unique natural hazard. It is slow in onset, 
does not typically impact infrastructure directly, and its 
secondary effects, such as impacts on tourism, commodity 
markets, wildfires, or hydropower are frequently larger than 
the primary effects, such as water shortages or crop losses.
    Turning my attention now to the current conditions, in the 
western United States the current drought started in 1999 and 
grew to affect 87 percent of the West at its peak, in the 
Summer of 2002. Although drought is continuing to affect parts 
of the West for the seventh consecutive year, drought 
conditions are much less expansive than in the past few years. 
At present, severe to extreme drought is restricted to a region 
from Arizona eastward through much of New Mexico and 
southeastern Colorado. Severe to extreme drought, aggravated by 
record heat in mid-April, encompasses the central and southern 
Great Plains, producing two particularly severe impacts: 
stressed winter wheat and dangerous wildfires. Farther south, 
exceptional drought, the most serious drought classification of 
the U.S. Drought Monitor, has settled into southern Texas. In 
the eastern states, severe to extreme drought recently 
developed along the northern Gulf Coast.
    NOAA's outlook for the next 3 months is for these 
conditions to persist, with the exception of improvements on 
the eastern side of the Great Plains and the Gulf Coast.
    The current conditions I have just described were provided 
by the U.S. Drought Monitor. This weekly report is the result 
of a truly collaborative effort among drought experts from 
NOAA, the U.S. Department of Agriculture, and the National 
Drought Mitigation Center at the University of Nebraska--
Lincoln, with input from other Federal and State agencies, as 
well as a network of over 100 experts around the country. The 
U.S. Drought Monitor provides a consensus of the current state 
of drought in all 50 States and Puerto Rico, using multiple 
objective drought indicators, such as soil moisture and stream 
flow, combined with reports of current conditions, such as 
weekly crop reports.
    The Monitor expresses drought conditions in five classes, 
ranging from abnormally dry, which could reflect a short-term 
dryness or lingering water deficits, to exceptional drought, 
which might reflect widespread crop losses or water 
emergencies. Among its varied uses, Federal officials have used 
the U.S. Drought Monitor in recent years to determine disaster 
assistance allocations to ranchers and farmers affected by 
severe drought.
    The increasing demand for drought information motivated the 
development of a broadbased plan for a National Integrated 
Drought Information System that was proposed in 2004 by the 
Western Governors' Association. This is an ambitious program to 
significantly enhance the Nation's ability to monitor and 
forecast drought. It will create a national drought early 
warning system to enable the Nation to address both responses 
to drought and proactive approaches of risk reduction.
    The implementation of the National Integrated Drought 
Information System will require building a National Drought 
Monitoring and Forecasting System, improving predictive 
capabilities, providing an interactive drought information 
delivery system for products and services, and designing 
mechanisms for improved interaction with the public.
    In response to a recommendation from the Western Governors 
for NOAA to lead the National Integrated Drought Information 
System, we have initiated its development in partnership with 
other Federal, regional, and State organizations. For example, 
the National Integrated Drought Information System has been 
identified as a near-term opportunity within the U.S. 
Integrated Earth Observing System Strategy mentioned by 
Governor Geringer. And, in this context, Federal agencies have 
worked together to identify contributions from current 
infrastructure, as well as critical gaps in observations and 
information delivery mechanisms for drought.
    If supported, we project that the National Integrated 
Drought Information System will take 5 to 6 years to fully 
implement. The President's Fiscal Year 2007 budget request for 
NOAA includes an increase of $5.7 million to support NIDIS. Of 
this amount, $4 million will support problem-focused drought-
impact research specifically aimed at risk reduction, while the 
remainder addresses the Climate Reference Network and regional 
climate services. We urge the Committee to support NOAA's 
Fiscal Year 2007 budget request.
    Mr. Chairman, this concludes my testimony. I appreciate the 
opportunity to testify. And I'll be pleased to answer your 
questions.
    Thank you.
    [The prepared statement of Dr. Koblinsky follows:]

   Prepared Statement of Dr. Chester J. Koblinsky, Director, Climate 
 Program Office, Office of Oceanic and Atmospheric Research, National 
 Oceanic and Atmospheric Administration (NOAA), Department of Commerce

    Good morning, Mr. Chairman and members of the Committee. I am 
Chester (Chet) Koblinsky, Director of the National Oceanic and 
Atmospheric Administration's (NOAA's) Climate Program Office, which is 
part of NOAA's Office of Oceanic and Atmospheric Research. I am also 
the team leader of NOAA's Climate Mission Goal, which oversees all of 
NOAA's climate activities. Thank you for inviting me to discuss drought 
conditions in the United States and NOAA's role in drought research, 
monitoring, and forecasting.
    NOAA's climate programs provide the Nation with services and 
information to improve management of climate sensitive sectors, such as 
energy, agriculture, water, and living marine resources, through 
observations, analyses and predictions, and sustained user interaction. 
Our services include assessments and predictions of climate change and 
variability on timescales ranging from weeks to decades for a variety 
of phenomena, including drought. In my testimony I will highlight: (1) 
the current drought conditions across the Nation; (2) the drought 
outlook for 2006; (3) NOAA's drought monitoring and forecasting 
capabilities; (4) the National Drought Information System (NIDIS); (5) 
NOAA's drought research activities; and (6) NOAA's interagency 
collaborations on drought.
Defining Drought
    In the most general sense, drought refers to a period of time when 
precipitation levels are abnormally low, impacting human activities and 
the environment. While there is no single definition of drought that 
meets all needs, drought refers to a deficiency in precipitation over a 
period of time resulting in a water shortage. Scientists evaluate 
precipitation, temperature, soil moisture, ground water, and surface 
water data for the present and recent past to determine if drought 
conditions exist. Drought is not a purely physical phenomenon, but is 
an interplay between water availability and the needs of humans and the 
environment. Drought is a normal, recurrent feature of climate. It 
occurs almost everywhere, although its features vary from region to 
region. For consistency, I will be referring to drought conditions as 
defined using the U.S. Drought Monitor methodology, unless otherwise 
noted, throughout the remainder of my statement.
    Drought is a unique natural hazard. It is slow in onset, does not 
typically impact infrastructure directly, and its secondary effects, 
such as impacts on tourism, commodity markets, transportation, 
wildfires, insect epidemics, soil erosion, and hydropower, are 
frequently larger and longer lasting than the primary effects, such as 
water shortages and crop, livestock, and wildlife losses. Drought is 
estimated to result in average annual losses to all sectors of the 
economy of between $6 to $8 billion (in 2005 dollars). The costliest 
U.S. drought of the past forty years occurred in 1988 and caused more 
than $62 billion (in 2005 dollars) of economic losses. Although drought 
has not threatened the overall viability of U.S. agriculture, it does 
impose costs on regional and local agricultural economies. Severe fire 
seasons due to drought and frequent winds can also result in billions 
of dollars in damages and fire suppression costs.
Current Drought Status
    Drought conditions across the United States are depicted in Figure 
1. Although drought is affecting at least part of the West for the 
seventh consecutive year, drought conditions are much less expansive 
than in the recent past, with severe to extreme drought restricted to a 
relatively small region from Arizona eastward through much of New 
Mexico and southeastern Colorado.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The protracted, multi-year drought that had been plaguing the West 
has finally loosened its grip on central and northern parts of the 
region, where both precipitation and snowpack are near- to above-normal 
since the beginning of the 2005/2006 water year (October 1, 2005). This 
precipitation, in concert with copious precipitation that fell on 
central and southern parts of the West during the 2004/2005 water year, 
gradually eliminated drought conditions and boosted reservoir levels in 
most areas to the north and west of southern Colorado, although pockets 
of moderate drought persist in portions of Wyoming. Precipitation 
totals are now above-normal for time periods extending back 2 years 
along the West Coast and no drought conditions are reported for this 
region as of late April 2006.
    There remain two aspects of the current drought which have not 
fully recovered from the multi-year dry spell, even though most of the 
West is no longer shown as abnormally dry in the Drought Monitor 
(Figure 1). First, ground water levels in some areas, such as 
southeastern Idaho, remain exceedingly low. Second, the largest 
reservoirs in the West, such as Lakes Mead (58 percent full) and Powell 
(44 percent full), have not had enough time to recharge, and remain 
well below capacity.
    Drought has been slowly intensifying since the start of the 2005/
2006 water year across Arizona and New Mexico. During October 2005-
April 2006, less than 50 percent of normal precipitation fell over most 
of Arizona and New Mexico, resulting in a meager snowpack and 
unseasonably high fire danger. During the first 3 months of 2006, 
wildfires consumed almost 221,000 acres of land in the Southwest Area 
(comprised of western Texas, the Oklahoma Panhandle, New Mexico, and 
Arizona), more than 5 times the average January-March total for the 
previous 9 years. Surface moisture shortages are also affecting 
agriculture with about 94 percent of New Mexico topsoils characterized 
as short or very short of moisture, and 67 percent of the state's 
winter wheat crop in poor or very poor condition as of mid-April 2006. 
A majority of both Arizona and New Mexico are now depicted as 
experiencing severe to extreme drought, according to the U.S. Drought 
Monitor. However, except for southwestern New Mexico, water supplies 
are not as problematic across the Southwest because of heavy 
precipitation that fell last water year (2004/2005) boosting reservoir 
levels.
    Moderate drought covers a significant portion of the central Great 
Plains, although recent storms have erased lingering dryness in parts 
of the northern Plains. Severe to extreme drought, aggravated by record 
heat in mid-April, encompasses the southern Great Plains from southern 
Kansas and southwestern Missouri southward through central Texas. 
Farther south, exceptional drought, the most serious drought 
classification depicted by the U.S. Drought Monitor, has settled into 
southern Texas. Moderate to heavy rainfall during March eliminated 
extreme to exceptional drought conditions in southeastern Oklahoma and 
adjacent parts of Texas and Arkansas, with additional improvement in 
late April, but a broad area of severe drought lingered in its wake. 
Record dryness occurred in 2006 with Kansas having the driest February 
on record, Oklahoma the driest November to February, and Arkansas the 
driest October to February and March to February.
    The drought in the southern Great Plains has been highlighted by 
two particularly severe impacts: stressed winter wheat and dangerous 
wildfires. As of mid-April, 78 percent of Texas winter wheat was in 
poor or very poor condition, as was 67 percent of Oklahoma winter 
wheat. In contrast, 23 percent of Kansas winter wheat and just 12 
percent of Nebraska winter wheat rated poor or very poor. Through the 
first 3 months of 2006, fire danger was frequently high in the 
Southwest, the Plains, and parts of the East, but the largest and most 
damaging wildfires have occurred in Texas and adjacent areas. A record 
season continues and as of April 20, 2006, the Texas Forest Service is 
reporting over 1.5 million acres burned in the state during 2006.
    Across northern Illinois and southern Iowa, recent heavy rains have 
greatly ameliorated or eliminated the long-term drought which began 
affecting the region during the spring of 2005.
    Severe to extreme drought has recently developed along the northern 
Gulf Coast, as 6-month rainfall from early October to mid-April totaled 
less than 50 percent of normal from southern Louisiana into southern 
Alabama, though recent thunderstorms (especially on April 21) brought 
some relief. To the east, short-term dryness recently developed along 
the eastern half of the Gulf Coast, and the central and northern 
sections of the Atlantic Coastal Plain. As a result of depleted surface 
moisture, wildfires developed across Florida in March and April, and 
fire danger remained high, while the most noticeable impact of the 
short-term dryness from the Carolinas northeastward through southern 
Maine has been a sharp drop in streamflows relative to historic 
observations for this time of year. In the New England hydrologic 
region, 23 percent of reporting gauges set new daily low flows on April 
20, 2006, with 13 percent setting low flows in the South Atlantic 
region, and 10 percent in the mid-Atlantic region. Heavy rains falling 
over the Appalachians, mid-Atlantic states, and New England on April 
21-24 have significantly eased drought concerns for the time being.
    The dryness across most of the eastern states generally developed 
over the course of the last few months. In the central Carolinas and 
adjacent Virginia, however, rainfall shortages date back much longer, 
affecting water supplies in some areas. Most of this region is 
classified as experiencing moderate to severe drought in mid-April, 
with the largest and longest-duration precipitation deficits observed 
in central North Carolina resulting in almost 10 percent of the state's 
population under mandatory water conservation measures.
Historical Perspective
    From a historical perspective of droughts, some indicators depict 
the recent multi-year drought (1999-2006) as one of the most severe in 
the past 40 to 100 years, comparable to the severe droughts in the 
1950s and 1930s in some areas. On a national scale, 51 percent of the 
contiguous U.S. was affected by moderate to extreme drought, as defined 
by the Palmer Drought Index, during the peak of the drought in the 
Summer of 2002. This comes in third, behind 80 percent and 60 percent 
at the peak of the 1930s and 1950s national droughts, respectively.
    For the western United States, the current drought started in 1999 
and grew to affect 87 percent of the West at its peak in the Summer of 
2002. This is second only to the Summer of 1934 when 97 percent of the 
West was affected. In terms of the combined effects of intensity and 
duration, the 1999-2006 and 1986-1993 western droughts are 
unprecedented in the 110-year historical record. However, based on tree 
rings and other paleoclimatic data, droughts that have been more 
extreme than the current one have periodically affected the West during 
the last one thousand years, with some droughts lasting 20 to 30 years 
or longer. Paleoclimatic dating of these multi-decadal droughts 
coincide with evidence of societal stresses on native populations, 
including the Anasazi of the Four Corners Region. Recent population 
growth throughout the U.S. and particularly in the West has placed 
increased demands on water supplies, so drought vulnerability has 
increased because of greater numbers of water users.
The Outlook
    In order to fully appreciate the long-term outlook for the drought, 
it is helpful to understand the meteorological causes and ongoing 
research issues. Recent research, much of it coming from NOAA 
laboratories or from NOAA-funded projects at universities and based on 
collections of statistical and physical models, shows the important 
role existing ocean and ground conditions play in establishing wind 
patterns leading to ``blocking'' in the atmosphere. Blocking is an 
important factor in setting up the weather conditions which cause 
prolonged warm and dry conditions and reduced rainfall and above-normal 
warmth. Climate trends should also be considered when forecasting the 
future evolution of a drought. Climate across much of the U.S. has been 
getting warmer for about 20-25 years, especially in the winter and 
spring. These conditions contribute to drought by increasing the rate 
of snow melt in the Spring and early Summer, and also by increasing 
water evaporation.
    The seasonal drought outlook (Figure 2) incorporates medium and 
long-range forecasts of precipitation and temperature from NOAA's 
Climate Prediction Center and also considers the Spring-Summer 
streamflow forecasts from the U.S. Department of Agriculture and NOAA's 
National Weather Service. While precipitation has eliminated drought 
conditions across much of the West, recent precipitation in the 
Southwest will not be enough to make up for the extreme dryness 
experienced from October into early March. As of late April, mountain 
snow water content stood at less than 25 percent of normal for much of 
Arizona and New Mexico. As the dry season sets in, opportunities for 
further improvement will be quite limited through June. Furthermore, 
the official seasonal outlook produced by NOAA's Climate Prediction 
Center suggests that for May through July the Southwest will experience 
higher than normal temperatures which will increase mountain snow melt 
and evaporation. The latest streamflow forecasts for this spring and 
summer produced by USDA's Natural Resources Conservation Service and 
NOAA's National Weather Service indicate much below-normal streamflow 
for Arizona, New Mexico, southern Colorado and parts of southern Utah. 
Therefore, the seasonal drought outlook through July shows drought 
persisting over much of the region, although the monsoon season and its 
increased chance for showers and thunderstorms during July and August, 
should lead to some improvement in a few areas.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    NOAA's seasonal forecasts indicate that there is an increased 
chance for below normal rainfall during the spring and summer over the 
central and southern Plains. These forecasts also indicate an enhanced 
probability for higher than normal temperatures. Persistent drought is 
expected throughout July over southern and western Texas, eastern New 
Mexico, western Oklahoma, western Kansas, and eastern Colorado, as well 
as southern Nebraska. Ongoing drought accompanied by varying degrees of 
improvement is expected from Missouri into eastern parts of Kansas, 
Oklahoma, and Texas, and along the Gulf Coast, with more significant 
improvement over Arkansas and adjacent parts of Oklahoma and Texas.
    Elsewhere, the recent rains have reduced the odds for drought 
expansion or intensification from the mid-Atlantic states 
northeastward, but near-drought conditions will likely remain a concern 
this spring from Florida into southern Georgia.
Drought Monitoring and Forecasting
    NOAA continues to work with its partners to improve our Nation's 
ability to monitor drought. The U.S. Drought Monitor is produced on a 
weekly basis by drought experts from four U.S. organizations (NOAA's 
National Climatic Data Center, NOAA's Climate Prediction Center, the 
U.S. Department of Agriculture (USDA), and the National Drought 
Mitigation Center at the University of Nebraska) with input from other 
Federal and state agencies, as well as feedback from a network of over 
100 experts around the Nation. The U.S. Drought Monitor provides a 
consensus on the current state of drought in all 50 states and Puerto 
Rico using multiple objective drought indices and indicators (e.g., 
soil moisture and streamflow) combined with reports of current 
conditions and impacts (e.g., weekly crop progress and condition 
reports) from a wide range of public and private sector partners at the 
Federal, state, and local levels. Among its varied uses, Federal 
officials have used the U.S. Drought Monitor in recent years to 
determine disaster assistance allocations to ranchers and farmers 
affected by severe drought.
    NOAA continues to develop new products to improve our drought 
monitoring capabilities. More accurate precipitation mapping 
capabilities have resulted in experimental soil moisture products that 
are now being refined in collaboration with the National Aeronautics 
and Space Administration (NASA), Princeton University, and the 
University of Washington to create practical tools for monitoring soil 
moisture. NOAA's Climate Prediction Center operates a U.S. 
Precipitation Quality Control and Analysis program that produces daily 
high resolution maps of precipitation. To provide better coverage and 
more accurate measurements to aid in monitoring drought, NOAA continues 
to modernize its network of cooperative observation sites as well. NOAA 
continues to improve its drought forecasts. NOAA's Climate Prediction 
Center produces a monthly U.S. Seasonal Drought Outlook which forecasts 
drought conditions over the next 3\1/2\ months. The drought outlooks 
combine information from NOAA's suite of forecast products, from daily 
to seasonal, to show where drought will likely persist, ease, or 
develop during the next season. NOAA's National Centers for 
Environmental Prediction also creates other numerous products useful 
for drought forecasting, such as 2-week soil moisture forecasts based 
on temperature and rainfall forecasts and seasonal soil moisture 
forecasts based on soil moisture pattern from previous years. These 
forecasts help farmers, land managers and others prepare for and take 
steps to manage the effects of drought.
    NOAA can report some instances where the Agency accurately 
predicted several of the recent and ongoing droughts with the seasonal 
drought outlooks, especially in recent months. The early December 2005 
Outlook predicted drought expansion in the southern Plains and the 
Southwest and improvement in the Northwest by February 2006. The mid-
January Outlook accurately projected that drought would expand into 
Kansas and the Southwest, and this occurred by mid-March leading to 
problems with winter crops and pastures and increasing the danger of 
wildfires. The Outlook issued on March 16 warned of possible drought 
development from Florida northward into the mid-Atlantic region. By the 
end of March, drought had expanded northward into Virginia and Delaware 
and abnormal dryness had spread across Florida.
    NOAA's drought monitoring is supported by critical remotely sensed 
data provided by NOAA's Geostationary and Polar-orbiting Operational 
Environmental Satellites (GOES and POES, respectively). POES satellites 
are used to monitor vegetation stress, a precursor for the early on-
set, severity and duration of drought. In the United States, vegetation 
stress is an indicator used by farmers and the agricultural industry to 
track the condition of crops. As an indicator of biomass, satellite 
data are valuable in assessing wildland fire potential. NOAA's next-
generation geostationary and polar-orbiting satellites--GOES-R and the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS)--are being designed to continue these important drought 
monitoring capabilities. We urge the Committee to support the Fiscal 
Year 2007 President's budget request for these programs.
National Integrated Drought Information System (NIDIS)
    Drawing from experiences with stakeholders in drought-affected 
regions and recent reports on drought and stakeholder needs, NOAA has 
identified a significant demand for a concentrated research and 
stakeholder interactions effort that: (1) assesses the Nation's 
vulnerability to drought; (2) develops products useful for drought 
planning; and (3) develops ongoing collaborations with stakeholders to 
communicate climate impact information, co-produce tools, and 
participate in drought planning activities. In response to this demand 
and a request from the Western Governors' Association (WGA), NOAA has 
taken the lead on the development and implementation of a National 
Intergrated Drought Information System (NIDIS) in partnership with 
other Federal, regional and state organizations.
    NIDIS is an ambitious program to significantly enhance the Nation's 
ability to monitor and forecast drought. It will establish a modern, 
dense network of observing locations to observe and monitor all aspects 
of drought and enhance stakeholder access to information on drought 
conditions, impacts, and forecasts. NIDIS, in turn, will be supported 
by a focused drought research program. NIDIS will create a national 
drought early warning system to enable the Nation to move from a 
reactive to a more proactive approach to drought. The vision is for 
NIDIS to be a dynamic and accessible drought information system that 
provides users with the ability to determine the potential impacts of 
drought and their associated risks and also provides the decision-
support tools needed to better prepare for and mitigate the effects of 
drought.
    NIDIS will provide more comprehensive and timely drought 
information and forecasts which are required by numerous sectors to 
mitigate drought-related impacts. The Bonneville Power Administration 
and other hydropower authorities will benefit from enhanced water 
supply forecasts and drought information for hydropower management 
decisions. Water resource managers will have access to more information 
when balancing irrigation water rights with the needs of wildlife. 
Purchasing decisions by ranchers for hay and other feed supplies will 
be enhanced through the use of drought information to identify areas of 
greatest demand and the potential for shortages. Farmers will be better 
positioned to make decisions on which crops to plant and when to plant 
them. Municipalities and state agencies will have improved drought 
information and forecasts when allocating domestic and industrial water 
usage. Since drought information is used in allocating Federal 
emergency drought relief, improvements in monitoring networks will also 
lead to more accurate assessments of drought and, as a result, 
emergency declaration decisions that better reach out to those 
communities in need of assistance.
    A hallmark of NIDIS will be the provision of decision-support tools 
coupled with the ability for users to report localized conditions. To 
this end, NIDIS will link multi-disciplinary observations to ``on-the-
ground'' conditions that will yield value-added information for 
agricultural, recreational, water management, commercial, and other 
sectors.
    The four key components of NIDIS are: (1) improved integrated 
observations and data systems and forecasts; (2) new tools for analysis 
and decision-support; (3) coordinated monitoring, forecast, and impacts 
research and science; and (4) improved information dissemination and 
feedback.
    The implementation of NIDIS will require: (1) building a national 
drought monitoring and forecasting system; (2) creating a drought early 
warning system; (3) providing an interactive drought information 
delivery system for products and services--including an Internet portal 
and standardized products [databases, forecasts, Geographic Information 
Systems (GIS), maps, etc]; and (4) designing mechanisms for improved 
interaction with the public (education materials, forums, etc).
    NOAA will work internally to integrate planning for the observing 
system requirements, research priorities, and operational needs of 
NIDIS. A NIDIS executive team will be established to oversee 
implementation and coordination of NIDIS among the Federal partners 
[NOAA, U.S. Department of Agriculture (USDA), U.S. Army Corps of 
Engineers (USACE), Bureau of Land Management (BLM), Bureau of 
Reclamation (BOR), U.S. Geological Survey (USGS), Environmental 
Protection Agency (EPA), NASA] and will be facilitated by the National 
Science and Technology Council's Committee on Environment and Natural 
Resources. The result will be a sustained and coordinated interagency 
program, which will report regularly on its status, accomplishments, 
and plans for improvements.
    The expertise and tools of a number of NOAA programs are being 
brought together under the NIDIS framework to help the Nation address 
the challenge of drought. Climate services conducted in NOAA's National 
Weather Service; National Environmental Satellite, Data, and 
Information Service; and Office of Oceanic and Atmospheric Research 
will support NIDIS. NOAA's cooperative institute partners, Regional 
Integrated Sciences and Assessments (RISAs) teams, and Regional Climate 
Centers will be involved as well. NIDIS will also be supported by 
NOAA's current operational drought monitoring and outlook products and 
NOAA's applied climate research program.
    The President's Fiscal Year 2007 Budget Request for NOAA includes 
$16.2 million for Climate Observations and Services, with a $4.0 
million increase to directly support NIDIS related activities. This 
increase will sponsor integrated, problem-focused research and 
research-to-operations transition projects. Additional increases of 
$1.2 million for the Climate Reference Network and $0.5 million for 
regional climate services will help NOAA realize improvements in 
observation systems required by NIDIS. NOAA is projecting that it will 
take 5 to 6 years to fully implement NIDIS with gradual improvement in 
NOAA's drought monitoring and forecasting capabilities occurring 
throughout the implementation process.
    NIDIS is part of a larger NOAA effort over the past several years 
to deliver climate services that are produced and delivered in on-going 
consultation with affected stakeholders in order to ensure that the 
research-based insights, information products and expert opinions 
delivered are of the highest relevance and utility to the set of 
challenges at hand.
Drought Research Activities
    NOAA research activities support drought risk assessment and 
management. The research is focused on developing predictions of 
drought onset, termination, duration, and severity and the prediction 
of multi-year to decadal drought as a function of sea surface 
temperature variability, deep soil moisture/ground water variability, 
and other factors. NOAA's research also includes assessments of 
societal, economic, and environmental vulnerability to drought to 
inform risk reduction efforts. This work objectively quantifies drought 
and its associated economic impacts to accurately quantify the monetary 
benefits of improved drought prediction and mitigation. Our methods 
incorporate uncertain drought predictions to improve public and private 
sector planning and operational decisionmaking for water supply, 
transportation, hydropower, and irrigation.
    An integral part of NOAA's drought research activities is NOAA's 
support over the last 15 years of university-based research focused on 
the use of seasonal and inter-annual climate prediction information in 
decisionmaking across a range of sectors (e.g., agriculture, water 
management, public health, forest fire management, fisheries). In 
recent years, these university-based researchers through NOAA programs, 
such as the Regional Integrated Sciences and Assessments (RISA), 
Sectoral Applications Research Program (SARP), and NOAA Climate 
Transition Program (NCTP), have been working with stakeholders at the 
local, state, and regional levels to determine what type of climate 
information would be useful to their decisions, and determining how 
scientific information could help to reduce vulnerability to drought, 
in particular, along with other extreme events and long-term climate 
trends (e.g., declining snowpack). NOAA-funded researchers have been 
working with farmers, ranchers, state governors' offices, water 
management agencies, ditch companies, forest fire managers, and other 
stakeholders to analyze vulnerability to climate, assess the need for 
different types of climate information, and develop information of use 
to these decisionmakers. NOAA-funded drought research activities 
support the U.S. Climate Change Research Program (CCSP), and are in 
turn enhanced by the broader CCSP research going on at universities and 
other Federal agencies. By understanding the role of drought in human 
affairs and how information on the probability of drought can be 
integrated into existing decision environments, it is possible to move 
from drought response to pro-active drought management.
    As NOAA's global climate models improve, particularly the land 
component of Earth System Models, NOAA will be able to aggressively 
focus on drought prediction in the United States, at seasonal-
interannual timescales. In turn, as our understanding and skill at 
forecasting seasonal to interannual climate improves, the ability to 
use long-term climate models to assess regional drought risks increases 
as well. To better predict drought and other climate events, NOAA 
continues to invest in research to better understand the 
interdependencies of the ocean and land and their combined influence on 
climate.
    Recent data shows a warming trend for the past several decades over 
much of the West, especially during the winter season. Climate models, 
using historical data, accurately simulate temperature increases 
consistent with this observed long-term warming trend. These models 
project the general warming trend will continue for the remainder of 
this century. However, neither climate model projections nor 
observations show any identifiable trend in precipitation, but they do 
reveal a changing distribution of precipitation intensity, similar to 
what would be expected in a warming climate. Specifically, NOAA's 
National Climatic Data Center and other research efforts have 
demonstrated that more of our precipitation is tending to fall in 
heavier precipitation events which can ultimately impact drought 
severity through changing precipitation run-off.
    Research at NOAA's Earth System Research Laboratory indicates 
recent decadal swings in precipitation in the western U.S. may be 
largely attributable to decadal variations and trends in ocean 
temperatures, especially in the tropical Pacific and Indian Oceans. The 
causes of these changes in ocean temperature are not fully understood, 
but are likely due in part to a combination of long-term climate change 
and variability in the atmosphere and ocean. Even with unchanging total 
precipitation in the western United States, continuation of current 
temperature trends may significantly influence the annual water cycle 
as well as water demand, with subsequent implications for water 
management.
    NOAA and sister science agencies in Mexico are co-leading the North 
American Monsoon Experiment (NAME), an international effort to enhance 
understanding of the sources and limits of predictability of warm 
season precipitations over North America, with emphasis on timescales 
from seasonal to interannual. Improved understanding and prediction of 
monsoon rainfall in the southwestern U.S. and Mexico is critical for 
water resource management in the region. NOAA's research community 
continues to interact with researchers, nationally and internationally, 
to improve climate and statistical models based on seasonal and longer-
term outlooks, enabling a steady increase in our understanding of the 
causes of drought. Learning the mechanisms triggering drought will 
enable us to better forecast the likelihood of drought development 
months and years ahead of time.
    To improve NOAA's ability to detect and analyze interannual-to-
decadal variability in climate and weather-climate trends, NOAA has 
proposed in Fiscal Year 2007 to invest in research to analyze and 
understand the causes of the 1930s and 1950s Dust Bowl droughts. One 
component of this research will be an extension of the current model-
based reconstruction of climate back beyond 1948 to cover the entire 
20th century to enhance NOAA's ability to describe atmospheric 
conditions during the 1930s Dust Bowl. The second component in this 
effort will be research focusing on diagnosing the causes of 1930s and 
1950s droughts and identifying opportunities to improve NOAA's 
capability to forecast the onset, severity and duration of high-impact 
scale droughts. This work will help NOAA address concerns and questions 
from stakeholders about comparisons between current conditions and 
those of the 1930s and 1950s.
    NOAA drought forecasters routinely meet with researchers to explore 
methods to improve the drought forecasts. Advanced forecast methods 
based on statistical and global numerical models will continue to be 
incorporated into drought outlooks, using the best forecast tools and 
research available. We are encouraged by recent research which helps to 
explain the reasons behind drought development. Realistically, it is 
(and always will be) a continuing challenge to produce seasonal 
forecasts which are consistently accurate. However, as with our weather 
forecasts, we believe we can continuously improve.
Collaboration With Other Agencies
    NOAA collaborates with many state and Federal agencies (e.g., USDA, 
NASA, USGS, EPA BOR, USACE, and others) and universities to understand, 
monitor, and predict drought. The U.S. Drought Monitor is only one 
example of this collaborative effort. NOAA works cooperatively with 
other agencies on research projects that can lead to improved drought 
monitoring tools. For example, we are currently working with NASA to 
incorporate additional satellite data from NASA and NOAA sensors into 
drought monitoring and forecasting. NOAA also works closely with the 
USDA on water supply forecasting in the western United States, and 
relies on the USGS for streamflow data critical to both water supply 
and flood forecasting. NOAA is also working with agencies, such as 
NASA, to improve seasonal drought forecasting. In May 2005, NOAA held a 
workshop with NASA to kick off this new effort in research 
collaboration. The workshop focused on what is needed to accelerate 
progress on drought prediction with a focus on developing capabilities 
and products that facilitate water management and agricultural 
applications for the Americas.
    Drought is a climate phenomenon with major impacts in North America 
and around the world. In today's global economy the costs and effects 
of drought extend beyond international borders and the North American 
Drought Monitor helps address this challenge. The North American 
Drought Monitor is a monthly product that the U.S. drought monitoring 
team produces in collaboration with Canadian and Mexican 
meteorologists. NOAA works with the U.S. Agency for International 
Development's Famine Early Warning System Network (USAID FEWS-NET) to 
monitor drought and significant weather events affecting water and food 
supplies in Africa, Central America, and Afghanistan. NOAA's 
contribution through a United States Agency for International 
Development--Office of Foreign Disaster Assistance (USAID-OFDA) 
partnership has resulted in the production of prototype scientific 
decision tools, such as prediction models for hydropower resource 
management in Eastern Africa where more than 70 percent of the 
countries rely on hydropower for electricity.
Concluding Remarks
    Mr. Chairman, this concludes my testimony. I thank you for the 
opportunity to discuss drought conditions in the United States and 
NOAA's role in drought research, monitoring, and forecasting. The topic 
is critical given the economic and environmental impacts of drought in 
the United States and the increasing demand for drought information to 
help to manage the demand for water. I would be happy to answer any 
questions you or other Members of the Committee may have.

    Senator DeMint. Thank you.
    Let me wade in first. Obviously, we're looking for ways to 
prevent the damage--the impact of droughts, because we know 
they're coming. I think all of you mentioned the management of 
water, availability of water. And it seems what we're talking 
about is, despite precipitation, that one big part of being 
prepared is to have a consistent and predictable supply of 
water, regardless of the lack of predictability of 
precipitation.
    And my question is--and this comes back to a project I've 
been working on for years in South Carolina, just trying to 
build a reservoir, that's on Federal land, and the permitting 
process of working with the Army Corps of Engineers, the EPA, 
Department of the Interior. And it appears--and the reason 
we're looking at this is, 20 or 30 years down the road, with 
the growth in the area we need more availability of water. But 
the whole process of trying to get that done, the permitting, 
the environmental restrictions--it's going to take decades to 
do it.
    And I don't know if additional reservoir or storage 
possibilities exist anywhere to a scale that could help us in 
the vast areas of the midlands of our country, but my question 
is, is there a way to create more predictable water supplies, 
more reservoirs? And what are the obstacles to doing that? And 
I guess any of you could answer that. But is that even an 
option in the areas out west--Governor, we'll start with you.
    Mr. Geringer. Mr. Chairman, I'll give you a--perhaps just a 
slightly different view than, say, from a researcher's 
perspective. Water storage, of course, is built in two ways. 
One is a manmade structure, such as a reservoir. And you've 
mentioned that. The other is underground or groundwater. The 
hydrologic drought in many areas of our country is more 
significant than the surface drought today, because the water 
tables are being depleted, they're being mined. That's true all 
along the eastern slope of the Rockies. And it's happening in 
many other areas, as well. With times of prolonged drought or 
prolonged drawdown, it takes a long time. And I don't think we 
know enough about underground hydrology. There needs to be more 
research there.
    And so, it's not just about building more storage. It's 
better planning. I speak a lot on issues dealing with policy 
and technology, and trying to connect the two, but until you 
introduce sociology, the culture of people, that's your 
greatest challenge. How do you persuade people that this is not 
a wise choice, to build in this place or live in this place? We 
can say that there is a drought happening in, say, Washington, 
D.C. You've had a little bit less than typical precipitation 
here. So, it's classified as being partly in a drought. Is the 
Sahara in a drought? No, because it's at its normal level. 
People are not adapting to change and using risk management to 
make better choices. And I think that's the key.
    We have limits to what we can do to build storage and to 
anticipate water usage, but at some point there has to be an 
informed personal choice that, ``This is not a good thing for 
me to do,'' to build here, to do that, whatever it is, and then 
collectively, as a community, we either can provide or adopt 
land-use plans such that we don't exceed our capability to 
supply water. And that's the cultural part. That's why you're 
here.
    Senator DeMint. Yes, that's a very difficult issue. I know 
what we've dealt with, again, in South Carolina, that folks 
will move out into rural areas. The land's cheaper. There is no 
city water. There are wells. But when the drought came, they 
wanted city water, and wondered why they didn't have it when 
others did. And I see, around the country, when I go, that 
there are a lot of areas that are basically desert that have 
been heavily irrigated and depend on artificial supplies of 
water to maintain those wonderful lawns and golf courses. And I 
guess what you're saying is, that's happening everywhere as 
we're----
    Mr. Geringer. It's happening everywhere. And when you look 
at places such as Las Vegas or Phoenix and those areas that are 
arid, they've always been that way, they are not experiencing 
that much of a drought compared to other parts of the country, 
yet they're a popular place to live. And we've created a 
culture of expectation, that somehow someone will take care of 
it and minimize our risk, and I think we need to shift from 
that to a culture of self-reliance or more self-reliance, to 
where we make better choices.
    Senator DeMint. But you're saying that the ability to store 
enough water to deal with this is unlikely.
    Mr. Geringer. There's a limit to surface-water storage. 
It's obviously a wise thing to do, but there has to be an 
evaluation as to the intended or unintended impact on others. 
Look at Los Angeles and the Owens Valley, the demand on the 
Green River, the Green/Colorado combination, where Mexico is 
probably hit the hardest so far, and what happens to water 
quantity and quality. Even though we can store more water in 
the Colorado, there are other demands or needs that have 
already historically been placed on that water, and we have 
to--I think that's the purpose of an integrated information 
system, is that, for too many years, we've looked at things in 
isolation, we don't see the collateral effects of choices that 
we're making, either individually or, say, building a dam, and 
managing it with an information system that has enough data 
feeding into it that we can narrow down the unpredictability 
and make wiser choices through greater certainty on 
predictability, and not having someone else tell us the answer, 
but we discover it on our own.
    Senator DeMint. Dr. Wilhite?
    Dr. Wilhite. Yes, I'll elaborate on some of those key 
points.
    I think when we think about drought management, the drought 
is, yes, a natural hazard, but drought management is as much a 
sociological sort of an issue as anything else, because, 
really, we're talking about human behavior. And if we look at 
population growth around the United States, we've seen this 
tremendous growth in population in the West, but also an 
increasing population in your area of the country, as well. I 
think the State of Georgia's population increased by over 25 
percent between 1990 and 2000. But if you look in the West, 
such as Arizona, that the Governor referred to, you're looking 
at population growth of 40 percent in a 10-year period. And 
this is 40-percent population growth in an area that's already 
very dry and water-short.
    So, if we're going to look at future water supplies and its 
availability, surface water augmentation, groundwater recharge 
is another option. But, as you stated, when it comes to 
building new reservoirs, the regulations, the environmental 
concerns, and so forth, as well as sites that are available for 
that throughout the country, are quite limited.
    So, I think we need to be looking at conservation as a huge 
key to trying to improve this. We need to be looking at helping 
people make better decisions as to where they live and where 
they move, to put this additional demand on an already limited 
resource in many parts of the country.
    We really need to move more toward this risk-management 
approach. And one of the things that we stress to states and 
tribal governments and others that we work with is doing 
vulnerability assessments. And certainly at a State level, in 
the State of Nebraska, for example, our Department of Health 
and Human Services did a vulnerability assessment of 
communities in the state as to their vulnerability related to a 
shortage of water during a drought situation. Identify those 
communities, those regions of the country that are most at 
risk, and then you can put in place various kinds of programs, 
improve planning, develop better monitoring systems, and so 
forth, so that you are able to have earlier warning of possible 
problems in those particular areas.
    Senator DeMint. Yes, I think you mentioned development. In 
our area, along the coastline, the population is exploding. And 
they're heavily dependent on water that----
    Dr. Wilhite. Right.
    Senator DeMint.--comes from other areas. And it has to pass 
by us, in the upstate.
    Dr. Wilhite. Right.
    Senator DeMint. And the more we cutoff, the more difficult 
it is. If you look out, long-term--and I think I'm working my 
way back around to where you are with this whole integrated 
plan--and so, we have got to have a plan that gives people good 
information about the potential problems they have if they are 
going to live in different areas that are naturally water-
short.
    But, Dr. Koblinsky, did you have a comment, before I yield 
to the Senator for his questions?
    Dr. Koblinsky. Thank you. I'd just add to what our--my 
other two colleagues have mentioned and talk a bit about how we 
might be able to facilitate the transfer of information from a 
research and operations agency like my own to users such as 
you've described, your own experiences in South Carolina.
    And this is very--in parallel with the development of the 
Integrated Information System concept. We've had a great deal 
of success in NOAA, in the research side and in the operations 
side, in transferring information, sophisticated information 
such as forecast, outlooks, and monitoring information, to the 
user in the field by providing supports to centers of 
excellence around the country that connect in a user, problem-
driven approach to what's needed. And this has been successful 
in Hawaii. It has been successful in California. It has been 
successful in Arizona and Colorado and elsewhere--primarily to 
transfer seasonal interannual-type forecasts, but we foresee 
the same type of need, especially with a--focus on drought and 
water supply, that would be quite useful. And this is in our 
solicitation for--or the budget request of FY06, this drought 
impact research, which would be providing--developing centers 
of excellence that could provide the bridge between users like 
yourself and sophisticated tools that we're developing in the 
research community so that risk mitigation and risk reduction 
can be done in a better setting.
    Senator DeMint. Thank you.
    Senator Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Dr. Koblinsky, I'd like to talk just for a minute about 
authorization funding levels that should be included in a NIDIS 
bill. The House bill currently includes a multiyear 
authorization with funding levels ranging from $12 million to 
$18 million per year over Fiscal Years 2007 to 2012. And 
obviously it's a multi-year authorization. Do you think these 
funding levels are appropriate? Or, if not, do you have other 
thoughts about what funding would be required?
    Dr. Koblinsky. Thank you, Senator.
    We've discussed these levels, of course, within our agency, 
and talked within other agencies, and this level of funding 
seems appropriate. Over the course of the last year or two, the 
community has--not only NOAA, but other agencies--have looked 
at this problem, especially from the observing system and 
information side, as I discussed, and begun to think about how 
we would develop NIDIS into a true national system, as is 
described in your plan. And we want to--we want to make sure 
that we address the five or six goals that are in the NIDIS 
plan directly. And, seeing that, it's clear that we want to 
start in a pilot formation system, working with states that are 
very interested in pilots, and communities that are affected 
now. So, observing system--capital investments for augmenting 
observing systems to meet critical needs, such as soil 
moisture, meeting data latency problems, for example, in well 
readouts and stream flows and surface temperature measurements, 
in those areas.
    Adding to our ability to improve forecast capability, we do 
have a preliminary forecast capability I talked about in the 
Drought Outlook. And trying to improve that forecasting 
capability could be facilitated through some competitive 
research and transfer of that research into an operational 
framework setting.
    We've talked about the drought impacts research, already, 
that I mentioned. Having information transfer capability is 
critical, so the discussion of a drought Internet portal, or 
portals, that would communicate information to the user in a 
unified setting so they don't get many different messages 
across the web--hopefully, they'll get a unified set of 
information. Taking lessons learned from individual state 
pilots and success stories, and transferring them to a wider 
audience across the Nation as we build it out.
    So, certainly the level that's talked about seems 
consistent in the first year, and then--and we see that more 
of--in a development in certain regions. And then to grow it 
out to a national system over a 5- to 6-year period does seem 
appropriate, sir.
    Senator Ben Nelson. Recognizing that it's difficult to get 
multi-year funding proposal authorization, as you might be 
aware, it does raise some concerns about how we have it in the 
current environment. The President's budget includes $7.8 
million for FY07. So, being able to get there is important.
    Let me ask you--and Dr. Wilhite, as well--as you think 
about forecasting and prediction and learning from current 
situations, do you believe that, by predicting, you can reduce 
what would be--what we would have to experience in the way of 
drought relief costs at a later date? In other words, by 
predicting and forecasting, can we reduce the ravages--
financial ravage of droughts, in some cases, so that we won't 
have to be faced with such significant costs after the fact?
    Dr. Wilhite. I can go first.
    Senator Ben Nelson. Sure.
    Dr. Wilhite. Yes. I mean, I think that's really the thrust 
of what we're trying to do here. I--when we work with State 
governments, for example, to help them develop a drought plan, 
we think there are--there are three principal components of a 
good drought plan, whether it's at the tribal level, local 
level, national/State level. And first is early warning and 
prediction. Second is more mitigation-oriented. And then the 
third component is this risk and impact assessment.
    The problem is, you can't do good risk and impact 
assessment and install good mitigation kinds of actions unless 
you have the good early warning and prediction information up 
front to give you that timely delivery. And so, that is--so, 
that is very, very critical.
    We estimated--and if you look at some of the other natural-
hazard research, it indicates that for every dollar that you 
invest in mitigation preparedness, monitoring, early warning, 
you get about $4 back, in terms of savings and impacts. If we 
can reduce those impacts, then we certainly reduce the need for 
government drought relief efforts, which takes a burden off of 
the national treasury and off the American taxpayer. And so, 
investing up front is really, I think, the key issue here.
    Senator Ben Nelson. Dr. Koblinsky, do you agree with that?
    Dr. Koblinsky. Yes, I do. I think it's very consistent with 
what we've been talking about within NOAA.
    Senator Ben Nelson. Well, having voted twice last night for 
pretty expensive drought relief, I would look for a way to 
avoid having to do that, for a lot of different reasons, not 
the least of which is that if we can help people in the process 
of their agriculture or their overall economy not to have the 
costs associated with a drought, at least reduce them, 
certainly their lives are going to be less disrupted, our 
treasury will be less interrupted, and I think we'll all live 
better off. So, I do appreciate those thoughts.
    This is for everybody. Governor Geringer recommends, in his 
written testimony, that NIDIS not be set up under NOAA, but, 
rather, be part of an overall IEOS/GEOSS program office 
directly under the Secretary of Commerce. Could you each maybe 
comment on that? And I'll let Governor Geringer bat cleanup on 
that, if he prefers.
    Dr. Wilhite. Well, OK, I can comment, at the beginning.
    Well, I certainly support the NIDIS being implemented under 
NOAA. I think the tricky issue with the National Integrated 
Drought Information System is that drought is an issue that 
spans so many different Federal agencies and so forth. We 
fragment the way we manage, monitor water in this country, and 
that's really not any different than any other country in the 
world. I mean, I see this problem all over the world. So, it's 
difficult to bring organizations together. So, if NOAA's the 
implementing agency, I think the key issue is going to be how 
to connect, coordinate with the other Federal agencies with 
non-Federal agencies to work together in the implementation of 
NIDIS, and how other Federal agencies that see some important 
needs--for example, the U.S. Geological Survey with regards to 
stream gauging and so on, if there needs to be an expansion of 
that network, that they need to be able to get access to those 
resources in order to do that as part of NIDIS, because it all 
feeds into this overall delivery system that we're talking 
about.
    So, regardless of where the home is, it needs to be an 
integrated system, it needs to be coordinated underneath the 
implementing agency.
    I do support NOAA being that implementing agency, because 
of their emphasis on monitoring and prediction. And we've 
worked closely with them throughout our history, since we were 
formed, in 1995.
    Dr. Koblinsky. Being the home agency that's being the 
requestor here, we certainly accept the challenge to take on 
the NIDIS leadership, and are very concerned and serious about 
making sure that this is a collaborative and cooperative 
venture between all Federal agencies that are appropriate, and 
State agencies, and regional points of view, as well as the 
private sector, as appropriate.
    We've begun to initiate these activities. We've found 
tremendous enthusiasm in the community, among the parties that 
I've mentioned, to re-engage on this, since the plan was first 
developed and submitted in 2004. We look forward to hosting 
some workshops this summer to get this underway and develop the 
community view on the best path forward.
    And I feel that, from the practical point of view of 
implementing observing systems, prediction systems, risk 
research and the like, that NOAA is the appropriate home. We do 
a lot of that work, certainly. And I'll let my bosses speak to 
whether or not it's appropriate to have an oversight group 
within the Department of Commerce or not.
    Senator Ben Nelson. Governor Geringer, I guess the ball's 
in your court.
    Mr. Geringer. Senator, I guess I'll qualify my remarks by 
saying there are ways that we could do it that make a lot of 
sense, and then there are ways that are being done in D.C. So--
--
    [Laughter.]
    Senator Ben Nelson. I think we can all share those 
thoughts, yes.
    Mr. Geringer. That's why it makes a somewhat difficult 
question to answer. I believe it should be at the level where 
top policymakers act and cause things to happen. The greatest 
benefit of putting NIDIS within NOAA is, they can make things 
happen more quickly and provide a system that's targeted toward 
drought detection, mitigation, and information, so that we can 
enable things to happen.
    But, just as with so many other things, we're discovering, 
through better technology, the greater ability to evaluate the 
world around us, that we need a program office that starts to 
pull all the disparate activities together. I believe that 
could be more effectively done at the department level, at the 
Secretaries level. There certainly is the Office of Science, 
Technology, and Policy in the White House, but that's not a 
policy group. That's just an advisory group. There are many 
places where they--we could put this organization. But if we 
want to foster the integration, there are two things that need 
to be done. One would be to move it to a level where it has 
some visibility to other departments of government, and the 
second is through the oversight process that you and your 
fellow Members of Congress use. By the nature of how you 
conduct business, such as this Subcommittee hearing, it tends 
to foster fragmentation. I think you have a--an opportunity to 
see how much beyond just the reach of this committee this could 
have an impact and help foster that through the structure of 
how you view legislation, how you not only authorize funding, 
but appropriate money, so that there is an encouragement to 
agencies.
    I sat through the last 2 days with a group of people, 
including some Federal agencies. And one of the questions I 
asked them had to do with benefit delivery after a major 
disaster, such as Hurricane Katrina. And I said, ``How would 
you define success?'' And one individual from Treasury said, 
``My definition of success is when my boss doesn't have to 
appear before Congress.''
    [Laughter.]
    Mr. Geringer. There's this underlying feeling that somehow 
an agency will be criticized if they don't do their little area 
that has been under the specific oversight of a Congressional 
Committee.
    So, I guess I--my answer is in two parts. One is in your 
process, the other is in the organizational structure of how we 
can fund and engage a system that truly ought to foster 
integration of information so that better decisions are made.
    Senator Ben Nelson. Well, in any event, it's clear that 
there are issues, economic issues that the Department of 
Commerce has an abiding and continuing interest in that need to 
be considered, as well. It's just the technical side of, ``Here 
are the statistics, here's what's going to happen.'' So, 
joining those together as part of the effort will certainly be 
required, regardless of where NIDIS is housed.
    Mr. Geringer. Correct.
    Senator Ben Nelson. I appreciate your suggestion. It's well 
observed and----
    Mr. Geringer. We would be----
    Senator Ben Nelson.--it's a----
    Mr. Geringer.--to draft some tentative amending language, 
just to give you an idea how it could be articulated in 
legislation.
    Senator Ben Nelson. Sure. That would be very welcomed, 
thank you.
    [The information referred to follows:]

                        The Alliance for Earth Observations
                                        Arlington, VA, May 17, 2006
Hon. Jim DeMint,
Chairman,

Hon. E. Benjamin Nelson,
Ranking Member,

Senate Subcommittee on Disaster Prevention and Prediction,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator DeMint and Senator Nelson:

    Thank you for the opportunity to testify at the April 27th Drought 
Hearing before the Subcommittee on Disaster Prevention and 
Preparedness. I hope that my testimony was useful to you and your 
colleagues in providing a vision for the National Integrated Drought 
Information System (NIDIS). and helped to highlight the need to develop 
technology solutions to America's resource management issues. I can 
think of no better area in which to demonstrate these technology 
solutions than the critical area of water.
    In response to your request during the hearing to provide draft 
language for an amendment to the S. 2751, I would like to offer the 
following, recommended text:

        We direct the Secretary of Commerce to establish a Program 
        Office and proceed to implement activities associated with the 
        U.S. Integrated Earth Observation System (IEOS), which will be 
        the U.S. contribution to the Global Earth Observation System of 
        Systems (GEOSS). The National Integrated Drought Information 
        System (NIDIS) will be a key component of this effort. The 
        office will ensure that IEOS provides an overarching framework 
        for NIDIS and other U.S. observing activities. and engages non-
        Federal stakeholders in planning and implementation to ensure 
        responsiveness to the needs of U.S. citizens, the public and 
        private sectors, academia. and non-governmental organizations.

        Sincerely,
                                              Jim Geringer.

    Mr. Geringer. And then you can debate the merits, which way 
you want to go. Some of it has to do with how you phase it in.
    Senator Ben Nelson. Sure.
    Mr. Geringer. I see NIDIS as a first step.
    Senator Ben Nelson. Thank you, Mr. Chairman. I want to 
thank the panelists, as well. Good to see you all.
    Senator DeMint. Just one more question, about agriculture 
and drought. All of us in the country depend on the Bread 
Basket from Senator Nelson's area and all around the middle 
part of our country. We can't necessarily plan to move fields 
and, you know, thousands of acres. As we look at--is that a 
part of this system that we're talking about, this planning 
system of how we deal with supplying the Nation and a good part 
of the world with food when a drought could severely disrupt 
that? So, I mean, is that part of the system? We haven't really 
talked too much specifically about agriculture today. So----
    Dr. Wilhite. Yes. I can comment on that.
    We've just recently initiated some major research efforts, 
in partnership with USDA's Risk Management Agency. So, we're 
continuing to develop more and more decision-support tools that 
are primarily aimed at agricultural producers. And so, what 
we're trying to do is to provide better information, more 
timely information to them at critical points during the season 
to allow them to make better-informed, hopefully risk-reduction 
types of decisions. We think that, with the technology that's 
out there today, that we can really provide that information, 
almost down to the field level, certainly within a county 
level, so that they can--you know, over the next couple of 
years as we develop these tools, they can do a better job of 
assessing their risk and making those decisions based upon 
where they are with regards to water supply, precipitation 
conditions, given their soil types, I mean, using geographic 
information systems and so on to bring a lot of this diverse 
information together to help them make these kinds of 
decisions.
    So, a lot of this is aimed at agriculture, but these 
decision-support tools, I feel, are also going to be very, very 
important for water managers, natural-resource managers, and so 
forth. So, agriculture certainly is the major sector that is 
usually associated with drought and drought impacts, but, as 
the Governor mentioned previously, there are a lot of other 
sectors that are experiencing tremendous impacts today that we 
didn't see so much of in the past, and we have to provide 
better information for those sectors, as well.
    Senator DeMint. Governor?
    Mr. Geringer. I'll add one additional remark and then give 
a personal experience, as well.
    The greatest need is for information in context. And the 
geospatial systems that are available from a variety of vendors 
today all depend on the quality of good base information so you 
can draw the comparisons, overlay the influencing factors or 
the things that may not have been apparently related before can 
be seen in context. And that's what really makes a good 
decision-support system.
    Let me give you an experience, both as a farmer and as a 
Governor. The kind of down-to-the-county-level information and 
near-term information that could be used to decide which crop 
to plant--I've decided which crop to plant, be it malt barley 
or sugar beets, depending on a forecast for near-term, let's 
say 3 months--3 to 6 months. Sugar beets are a high consumer of 
water. So is alfalfa. I would add, in parenthesis, that turf at 
golf courses and on lawns is the highest consumer of water, and 
we have far more agriculture in lawns than we do in production 
agriculture in many of our areas of the country. So, that's 
just an aside about agriculture. So, the first choice is, what 
kind of crop would I plant? And would I have the information in 
advance to do that? And I should be able to make those 
decisions and take the responsibility for it.
    Now, if you're a rancher, and you have, say, cattle, well, 
you don't just liquidate your herd, you look for alternative 
pasture--or an alternative way to carry through a water-short 
year. You can't just liquidate and buy back. You can't manage 
risk that--within those boundaries and make a living at it. So, 
there has to be a longer period of predictability.
    And then, as Governor, some of the longest impact has to do 
with forest health, both in our western States, when the year 
2000 rolled around and we had terrible fires, and also, more 
recently, in California, the San Bernardino Forest, with 
drought and the stress that resulted, beetle infestation took 
over, disease caused up to 80 percent mortality in some trees. 
We could see it coming, we could see it happening, yet people 
were still building homes in the wildland/urban interface. The 
logical thing would have been to deal with the disease as it 
was happening, perhaps thin some of the understory, clear it 
out, thin some of the trees that were dying, so that the risk 
of fire could be managed within certain boundaries. But there 
are so many contending values out there that we don't see to 
have a solid base of information well enough in hand to where 
we can make a consensus decision to take action before a 
disaster occurs, such as the fires that occurred in southern 
California.
    So, there's the long-term. You need that predictability, 
even though it's not with total certainty, to evaluate 
information, to put it in a context that the objectivity 
emerges, and, even with conflicting values, you can make wiser 
choices. So, it--each of those has a period that expands from 
the other--near-term, longer-term, very long-term--and the 
decisions that are made have to be built on credible science 
and acceptable information systems so that people that have 
differing values can finally reach a consensus on a course of 
action.
    Dr. Koblinsky. If I could just add to this, Senator. From 
the Federal perspective, there has been a long-term 
collaboration between NOAA and the Agriculture Department on 
sharing forecasts, weather forecasts and the like. And just 
yesterday I had a call from the Federal--Foreign Agricultural 
Service of the USDA with a lot of interest in engaging in 
NIDIS. They do the crop models across the globe and--as well as 
across our country. And a lot of interest in improving their 
forecast and observing system information to connect for 
improving crop models in the United States. So, I think already 
we can see not only long history between NOAA and the 
Agriculture Department, on the Federal level, but also 
immediate interest in this Integrated Drought Information 
System that we've talked about today.
    Senator DeMint. Well, this has been excellent, and I really 
want to thank our witnesses. And I think that Senator Nelson 
and I hopefully can take this information and develop it into 
something constructive that's supportive of what you're already 
doing.
    So, thank you. And thank you, again, Senator Nelson.
    Senator Ben Nelson. I want to thank the panelists, as well. 
Thank you very much.
    [Whereupon, at 11 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
